No. __________

In the Supreme Court of the United States
SECRETARY PENNSYLVANIA DEPARTMENT OF
LABOR AND INDUSTRY,

Petitioner

v.
DELAWARE RIVER JOINT TOLL BRIDGE COMMISSION,

Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR WRIT OF CERTIORARI
JOSH SHAPIRO

Attorney General
Commonwealth of Pennsylvania
J. BART DELONE

Chief Deputy Attorney General
Counsel of Record
CLAUDIA M. TESORO
SEAN A. KIRKPATRICK
MICHAEL J. SCARINCI
DANIEL B. MULLEN

Deputy Attorneys General
Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 705-2331
COUNSEL FOR PETITIONER

i
QUESTION PRESENTED
Under the Compact Clause of the Constitution, the
States may contract with each other to cooperatively
address issues of mutual concern. U.S. CONST., Art. I,
§ 10, cl. 3. In 1934, Pennsylvania and New Jersey
entered into an interstate compact to construct
bridges across the Delaware River and created the
Delaware River Joint Toll Bridge Commission. The
Third Circuit Court of Appeals held that
Pennsylvania relinquished all sovereign authority
over that Commission merely by entering into the
compact.

The question presented is:
Do compacting States, simply by creating an
interstate compact, relinquish all sovereign authority
over that compact entity unless expressly reserved?

ii
PARTIES TO THE PROCEEDING
Petitioner is the Acting Secretary of the
Pennsylvania Department of Labor and Industry,
Jennifer Berrier.
Respondent is the Delaware River Joint Toll
Bridge Commission.
RELATED PROCEEDINGS

Delaware River Joint Toll Bridge Commission v.
W. Gerald Oleksiak, No. 2-19-cv-02978, United States
District Court for the Eastern District of
Pennsylvania. Preliminary injunction entered August
2, 2019. Judgment entered March 26, 2020.

Delaware River Joint Toll Bridge Commission v.
Secretary Pennsylvania Department of Labor and
Industry, No, 20-1898, United States Court of Appeals
for the Third Circuit. Judgment entered January 12,
2021.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ....................................... i
PARTIES TO THE PROCEEDING ......................... ii
RELATED PROCEEDINGS .................................... ii
TABLE OF CONTENTS ......................................... iii
TABLE OF AUTHORITIES .................................... v
INTRODUCTION .................................................... 1
OPINIONS BELOW ................................................. 2
STATEMENT OF JURISDICTION ........................ 2
CONSTITUTIONAL PROVISIONS INVOLVED ... 2
STATEMENT OF THE CASE ................................. 2
REASONS FOR GRANTING THE WRIT............. 10
I. The Court of Appeals’ decision conflicts with two
centuries of this Court’s precedents, which
establish that silence is a retention of sovereign
power, not a relinquishment. ........................... 11
A. A compact is a unique legal document in that
it is a contract, a treaty, and a federal
statute. But in whatever form, silence cannot
cede sovereignty. ......................................... 15
B. The Court of Appeals upended fundamental
principles concerning the relinquishment of
state sovereignty. ........................................ 17

iv
II. The Court of Appeals’ decision on the surrender
of sovereignty conflicts with decisions from the
Second Circuit and New York’s Highest
Court.................................................................. 21
III. The use of compacts is widespread, affecting
the National interest, and the Court of Appeals’
decision has the potential to destabilize
compacts across the United States. ................. 27
CONCLUSION ....................................................... 29
APPENDIX
Court of Appeals Opinion ................................. 1a
District Court Opinion .................................... 14a
Interstate Compact ......................................... 61a

v
TABLE OF AUTHORITIES
Cases

Page

Alabama v. North Carolina,
560 U.S. 330 (2010) ..................................................15
Barnes v. Glen Theatre,
501 U.S. 560 (1991) ..................................................11
Delaware River Joint Toll Bridge Commission v.
Colburn, 310 U.S. 419 (1940) ..................................26
Dezaio v. Port Auth. of N.Y. & N.J.,
205 F.3d 62 (2d Cir. 2000) ........................... 22, 25, 26
Eastern Paralyzed Veterans Ass’n, Inc. v. City of
Camden, 545 A.2d 127 (N.J. 1988) ..........................23
Franchise Tax Bd. of Cal. v. Hyatt,
__ U.S. __, 139 S.Ct. 1485 (2020) ......................11, 12
GE Energy Power Comm’n France SAS Corp. v.
Outkumpu Stainless USA LLC,
__ U.S. __, 140 S.Ct. 1637 (2020) ............................16
Green v. Biddle,
21 U.S. (8 Wheat.) 1 (1821)......................................15
Hadacheck v. Sebastian,
239 U.S. 394 (1915) ..................................................10
Hess v. Port. Auth. Trans-Hudson Corp.,
513 U.S. 30 (1994) ...................................... 2, 3, 24, 29
Hinderlider v. La Plata River & Cherry Creek
Ditch Co., 304 U.S. 92 (1938) ..................................15

vi
TABLE OF AUTHORITIES – CONT’D.
Cases
Page
HIP Heightened Independence & Progress, Inc. v.
Port Authority,
693 F.3d 345 (3d Cir. 2012) ................... 10, 17, 22, 26
Home Bldg. & Loan Ass’n v. Blaisdell,
290 U.S. 398 (1934) ..................................................16
Home Tel. & Tel. Co. v. City of Los Angeles,
211 U.S. 265 (1908) ............................................11, 14
In re Delaware R.R. Tax,
85 U.S. 206 (1873) ..............................................11, 13
International Union of Operating Engineers v.
Delaware River Joint Toll Bridge Commission,
311 F.3d 273 (3d Cir. 2002) .....................................17
Isbrandtsen Co. v. Johnson,
343 U.S. 779 (1952) ..................................................16
Jefferson Branch Bank v. Skelly,
66 U.S. (1 Black) 436 (1861) ..............................11, 17
KMOV TV, Inc. v. Bi-State Dev. Agency,
625 F.Supp.2d 808 (E.D. Mo. 2008).........................28
Lake Country Estates, Inc. v. Tahoe Regional
Planning Agency, 440 U.S. 391 (1979) ....................15
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992) ................................................19
Matter of Agesen v. Catherwood,
260 N.E.2d 525 (N.Y. 1970) ......................... 22, 25, 26

vii
TABLE OF AUTHORITIES – CONT’D.
Cases
Page
Merrion v. Jicarilla Apache Tribe,
455 U.S. 130 (1982) ...................................... 14, 15, 20
Mitskovski v. Buffalo & Fort Erie Public Bridge
Auth., 689 F.Supp.2d 483 (W.D. N.Y. 2010) ...........28
Morgan v. Virginia,
328 U.S. 373 (1946) ..................................................24
New Jersey v. New York,
523 U.S. 767 (1998) ............................................15, 16
Petty v. Tennessee-Missouri Bridge Comm’n,
359 U.S. 275 (1959) ................................................3, 4
Pivesky v. Ridge,
98 F.3d 730 (3d Cir. 1996) .......................................17
Port Auth Trans-Hudson Corp. v. Feeney,
495 U.S. 299 (1990) ..................................................24
Providence Bank v. Billings,
29 U.S. 514 (1830) ....................................................13
Seattle Master Builders Ass’n v. Pacific Northwest
Elec. Power & Conservation Planning Council,
786 F.2d 1359 (9th Cir. 1986) ..................................28
State ex rel. Dyer v. Sims,
341 U.S. 22 (1951) ............................................ passim
Sturges v. Crowninshield,
17 U.S. (4 Wheat) 122 (1819)...................................12

viii
TABLE OF AUTHORITIES – CONT’D.
Cases
Page
Tarrant Reg’l Water Dist. v. Herrmann,
569 U.S. 614 (2013) ................................ 12, 13, 15, 16
U.S. Trust Co. of N.Y. v. N.J.,
431 U.S. 1 (1977) ......................................................22
U.S. v. Winstar Corp.,
518 U.S. 839 (1987) ..................................................22
United States v. Cherokee Nation of Oklahoma,
480 U.S. 700 (1987) ..................................................14
United States v. Locke,
471 U.S. 84 (1985) ....................................................11
Constitutional Provisions
U.S. CONST. Art. I, Sec. 10, Cl. 3 ..............................2, 4
U.S. CONST. Amend. X .................................................2
Federal Statutes
49 Stat. 1058 .................................................................4
61 Stat. 752 ...................................................................4
66 Stat. 28 .....................................................................4
101 Stat. 205 .................................................................4
Pennsylvania Statutes
35 P.S. § 691.202 .........................................................27
35 P.S. § 7210.101 .........................................................6
35 P.S. § 7210.102 .....................................................6, 8
35 P.S. § 7210.105 ...................................................6, 18
35 P.S. § 7210.301 .........................................................6

ix
TABLE OF AUTHORITIES – CONT’D.
Pennsylvania Statutes
Page
36 P.S. § 3401 ................................................................4
Elevator Regulation Law, Act of May 2, 1929, P.L.
1518, No. 452, 35 P.S. § 1341 et seq. (repealed). .......5
Fire and Panic Act, Act of Apr. 27, 1972, P.L. 465,
No. 299, 35 P.S. § 1221 et seq. ...................................5
State Fire Marshall Law, Act of Apr. 27, 1927, P.L.
450, No. 291, 35 P.S. § 1181 et seq. ...........................5
New Jersey Statute
N.J. STAT. ANN. § 32:8-1.............................................4
Rules
Sup. Ct. R. 10 ........................................................20, 21
Regulations
34 Pa. Code § 7.15 .......................................................27
34 Pa. Code § 50.52 .....................................................27
34 Pa. Code § 403.34 .....................................................8
34 Pa. Code § 403.42a ...................................................8
34 Pa. Code § 403.81 .....................................................8
Treatises
1 M. de Vattel, The Law of Nations (London, J.
Newberry et al. eds., 1760) ................................12, 16

x
TABLE OF AUTHORITIES – CONT’D.
Treatises
Page
A. Scalia & B. Garner, Reading Law: The
Interpretation of Legal Texts 93 (2012) ..................16
Anthony J. Bellia, Jr. & Bradford R. Clark, The
International Law Origins of American
Federalism, 120 Colum. L. Rev. 835 (2020) ............12
Council for State Governments, National Center
for Interstate Compacts, Frequently Asked
Questions, https://tinyurl.com/y6jsky9d (visited
May 20, 2021) ...........................................................27
Federalist No. 45 (Madison) .......................................12
Felix Frankfurter & James Landis, The Compact
Clause of the Constitution – A Study in Interstate
Adjustments, 34 Yale L.J. 685 (1925)........................3
Jacob Finkel, Note, Stranger in the Land of
Federalism: A Defense of the Compact Clause,
71 Stan. L. Rev. 1575 (2019)........................ 25, 27, 29
James F. Blumstein & Thomas J. Cheeseman,
State Empowerment and the Compact Clause, 27
Wm. & Mary Bill Rts. J. 775 (2019) ..........................3
Jill Elaine Hasday, Interstate Compacts in a
Democratic Society: The Problem of Permanency,
49 Fla. L. Rev. 1 (1997) ............................................27
Matthew S. Tripolitsiotis, Bridge Over Troubled
Waters: The Application of State Law to
Compact Clause Entities, 23 Yale L. & Pol'y Rev.
163 (2005) ......................................................... passim

xi
TABLE OF AUTHORITIES – CONT’D.
Treatises
Page
Notes, Charting No Man’s Land: Applying
Jurisdictional and Choice of Law Doctrines to
Interstate Compacts, 111 Harv. L. Rev. 1991
(1998) ..........................................................................3
Timothy S. Bishop, et al., “Considering Supreme
Court Review,” Federal Appellate Practice, 648
(ed. Philip Allen Lacovara 2008) .............................23
Zimmerman & Wendell, The Law and Use of
Interstate Compacts (The Council of State
Governments 1976) ..................................................15
Other Authorities
Declaration of Independence (U.S. 1776) ...................11
Dep’t of Conservation, 1949 N.Y. O. Atty. Gen. No.
118, *2 (1949) ...........................................................21
Port Authority’s 2019 Annual Report, found at
https://www.panynj.gov/corporate/en/financialinformation/annual-report.html#annualreports
(last visited June 2021)............................................23

1
INTRODUCTION
Interstate compact entities are created by a triad
of sovereigns—two States plus the Federal Government. Because of the origin and function of compacts,
and the necessary interaction between sovereigns, the
Court has recognized that it has a special role with
respect to these entities. This Court has also recognized a related fundamental principle: a State’s sovereignty must be expressly surrendered in unmistakable terms.
In direct contravention of this principle, the Court
of Appeals here held that when States create interstate compacts, they relinquish all aspects of sovereignty not expressly retained, including the most essential and least limitable—police powers. If the
Court of Appeals’ decision is allowed to stand, the effects could be profound and far-reaching. Every State
has construction codes to ensure building safety. But
under this holding, a compact entity need not comply
with any of those requirements. Additionally, under
the Court of Appeals’ reasoning, a compact entity
could ignore: zoning laws and build a 60-story office
building; environmental laws and build a coal-fired
power plant; or fire codes and build structures without proper fire suppression.
The Court of Appeals’ decision threatens the very
balance of sovereign interests at play when compact
entities are created, and thus the future of such compacts. To protect state sovereignty and the future viability of compacts, this Court should reaffirm its
longstanding precedent—only a State’s express relinquishment of sovereignty will work a surrender; every
other aspect of sovereignty is retained.

2
OPINIONS BELOW
The opinion of the Court of Appeals is reported at
985 F.3d 189 and is appended to this petition at 1a.
The decision of the District Court on summary judgment is not reported, but is appended at 14a.
STATEMENT OF JURISDICTION
The judgment of the Court of Appeals was entered
on January 12, 2021. This petition is being filed within 150 days thereafter as authorized under the Court’s
March 19, 2020 order. The Court has jurisdiction pursuant to 28 U.S.C. § 1254.
CONSTITUTIONAL PROVISIONS INVOLVED
Article I, Section 10, Clause 3 of the United States
Constitution provides in pertinent part that “[n]o
State shall, without the Consent of Congress, . . . enter into any Agreement or Compact with another
State * * *.” U.S. CONST. Art. I, Sec. 10, Cl. 3.
The Tenth Amendment to the United States Constitution provides that “[t]he powers not delegated to
the United States by the Constitution, nor prohibited
by it to the States, are reserved to the States respectively, or to the people.” U.S. CONST., Amend. X.
STATEMENT OF THE CASE
1. The mission of interstate compacts “is to address
interests and problems that do not coincide nicely either with the national boundaries or with State lines.”
Hess v. Port. Auth. Trans-Hudson Corp., 513 U.S. 30,
40 (1994). These problems “may be badly served or not

3
served at all by the ordinary channels of National or
State political action.” Ibid. Compacts have proven
useful for addressing these shared state problems,
through a common agenda, all while spreading the
costs of doing so among those States. State ex rel. Dyer
v. Sims, 341 U.S. 22, 28 (1951); see Felix Frankfurter
& James Landis, The Compact Clause of the Constitution – A Study in Interstate Adjustments, 34 Yale L.J.
685, 704, 707-708 (1925); see also James F. Blumstein
& Thomas J. Cheeseman, State Empowerment and the
Compact Clause, 27 Wm. & Mary Bill Rts. J. 775, 778779 (2019).
Because of the special origin and function of compacts, they present special concerns. Compact entities
“typically are creations of three discrete sovereigns:
two States and the Federal Government.” Hess, 513
U.S. at 40. A compact is one of “two peaceful modes of
settling disputes among the states.” Frankfurter &
Landis, supra at 692; see Petty v. Tennessee-Missouri
Bridge Comm’n, 359 U.S. 275, 279 n.5 (1959). The
other is through litigation, that is, this Court’s Article
III original jurisdiction. Petty, 359 U.S. at 279 n.5. Litigation, however, cannot create an entity “to regulate
a public work.” Notes, Charting No Man’s Land: Applying Jurisdictional and Choice of Law Doctrines to
Interstate Compacts, 111 Harv. L. Rev. 1991, 1995
n.29 (1998). As the “pressure of modern interstate
problems” mounted, this Court “emphasize[d] the
practical constitutional alternative provided by the
Compact Clause.” Sims, 341 U.S. at 27, citing People
of State of N.Y. v. State of N.J., 256 U.S. 296, 313
(1921); Frankfurter & Landis, supra at 691.
Given the origin and function of compacts, and the
necessary interaction between States, the Court has

4
long recognized that these entities require its special
attention. Because of compacts’ inherent structure,
involving multiple States, and the need to foster peace
between compacting States, this Court has emphasized that “the function and duty of the Supreme
Court of the Nation” is to determine the “nature and
scope of obligations” under an interstate compact.
Sims, 341 U.S. at 28; see also Petty, 359 U.S. at 279 &
n.5.
2. In 1934, the Commonwealth of Pennsylvania
and the State of New Jersey created the Delaware
River Joint Toll Bridge Commission (the Commission)
for the “authorized purposes” of jointly owning and
operating bridges spanning the Delaware River. Appx.
3a; Appx. 64a (Compact Art II). The Commission was
created by interstate compact under Article I, Section
10, Clause 3 of the United States Constitution and
codified in legislation enacted by each State. 36 P.S. §
3401 et seq.; N.J. STAT. ANN. § 32:8-1 et seq. (the
Compact). The Compact was approved by Congress in
1935.1 The States and Congress approved amendments to the Compact in 1947,2 1952,3 and 1987.4
Appx. 23a. The States attempted to expand the Commission’s jurisdiction to port and terminal facilities in
1953, but the proposed amendment “failed to gain full
congressional approval.” Ibid. (cleaned up).5
1

49 Stat. 1058-64.

2

61 Stat. 752-56.

3

66 Stat. 28-32.

4

101 Stat. 205-08.

5
Because the 1953 proposed amendment was not approved by Congress, the version of the Compact codified in the
States’ respective statutes does not reflect the federally-approved

5
The Compact, which can be found in full at Appendix 61a through 90a, does not state that the States
generally waive their sovereignty. As to the specific
police power at issue here—ensuring building safety
within Pennsylvania’s borders—the Compact makes
no mention of it. The Compact mentions health, safety, or welfare only once: in a provision giving the
Commission authority to make and enforce rules and
regulations regarding the safe use of its bridges.
Appx. 80a (Compact Art. X(g)).
The Commission currently controls seven toll
bridges and thirteen toll-supported bridges along the
northern 140 miles of the States’ shared border. Appx.
18a.
3. Two decades before the Commission was
formed, Pennsylvania created its Department of Labor and Industry (the Department) empowering it to
ensure a safe workplace. Act of June 2, 1913, P.L. 396,
No. 267. In the ensuing decades leading up to the creation of the Commission, Pennsylvania enacted numerous statutes outlining the Department’s authority
over building safety. See, e.g., the Fire and Panic Act,
Act of Apr. 27, 1972, P.L. 465, No. 299, 35 P.S. § 1221
et seq.; State Fire Marshall Law, Act of Apr. 27, 1927,
P.L. 450, 452-53, No. 291, § 3, 35 P.S. § 1181 et seq.;
Elevator Regulation Law, Act of May 2, 1929, P.L.
1518, No. 452, 35 P.S. § 1341 et seq. (repealed).
Compact. Appx. 23a at n.35. The Court of Appeals mistakenly
quoted language from the Compact using the 1953 proposed language. Compare Appx. 4a (quoting 1953 version of Art. II(p))
with 49 Stat. 1060 (original 1935 language the Court of Appeals
purports to quote). A copy of the Congressionally-approved Compact can be found in the Appendix at 61a.

6
In 1999, the Commonwealth enacted the Pennsylvania Construction Code Act, 35 P.S. § 7210.101, et
seq., “[t]o provide [construction] standards for the protection of life, health, property and environment and
for the safety and welfare of the consumer, general
public and the owners and occupants of buildings and
structures.” 35 P.S. § 7210.102(b)(1). This act authorizes the Department to promulgate regulations to implement construction standards, which collectively are
known as the Pennsylvania Uniform Construction
Code. 35 P.S. §§ 7210.105, 7210.301. This act also empowers the Department to, inter alia, “maintain
Statewide administration and inspection authority
over * * * elevators,” inspect State-owned buildings,
and ensure that “municipalities, municipal code officials, third-party agencies, construction code officials
and code administrators” are enforcing the standards.
35 P.S. § 7210.105(b),(c)(1).
For more than eighty years, the Commission submitted to Pennsylvania’s health and safety laws.
Appx. 58a. For example, in February 1952 the Commission applied to the Department for a permit to install an elevator at its Morrisville, Pennsylvania
building.6 The Department inspected the elevator and
issued a certificate of operations. From July 1994
through November 2018, annual safety inspections
were performed in conformance with the Commonwealth’s elevator safety regulations on the Morrisville
elevator by a certified elevator inspector.
6 The following facts are from the Department’s Statement of
Undisputed Facts in Support of Summary Judgement. E.D.Pa.,
No. 2:19-cv-2978, Doc. No. 43-2 at pp. 8-22. These facts are undisputed, as the Commission did not timely challenge them.
Appx. 58a n.140.

7
Likewise, in August 1989 the Commission applied
to the Department to install a new elevator in its Delaware Water Gap Toll Bridge Plaza. The Department
annually inspected the elevator pursuant to Commonwealth law until November 2008, when the elevator was taken out-of-service.
Beginning in October 2014, the Commission
sought and received from the Department Certificates
of Operations for its elevator at the I-78 Toll Plaza
building located in Easton, Pennsylvania. On July 17,
2019, the Department noted several safety violations
in the operations of the elevator, requiring the Commission to correct these safety violations. The Commission had also complied with the Commonwealth’s
Boiler and Unfired Pressure Vessel Law in no fewer
than five of its buildings.7
This compliance with Pennsylvania law ended in
2018 with the construction of the Scudder Falls administration building.
4. The Commission owns the Scudder Falls
Bridge, which carries Interstate 295 over the Delaware River. Appx. 18a. In 2016, the Commission purchased a ten-acre parcel of land in Pennsylvania near
the bridge to construct a new administration building.
Ibid. The Commission began construction of the administration building without obtaining a building
permit, in violation of the Uniform Construction Code.
7 These buildings include the Milford-Montague Toll Bridge
building in Milford, Pennsylvania; Delaware Water Gap building
in Delaware Water Gap, Pennsylvania; Portland Columbia
Bridge operations building in Portland, Pennsylvania; Morrisville Bridge building in Morrisville Pennsylvania; and New Hope
Lambertville Bridge facility in New Hope, Pennsylvania.

8
Appx. 19a (citing 34 Pa. Code § 403.42a). In November
2018, two Department inspectors drove past and noticed the unauthorized construction. Ibid. “The two
inspectors notified the Department’s Uniform Construction Code Field Operations Manager[,]” who advised the Commission that he intended to send a
building inspector to issue a stop work order. Appx.
19a-20a (citing 34 Pa. Code § 403.81). “[T]he Commission responded by stating it is not subject to the regulatory authority of the Commonwealth of Pennsylvania including the Department’s Uniform Construction
Code.” Appx. 20a (internal quotation marks omitted).
In February 2019, the Secretary of the Pennsylvania Department of Labor and Industry (the Secretary)
responded to the Commission’s assertion, stating that
the Commonwealth “has not surrendered its sovereignty, especially as it extends to its sovereign police
power to protect the safety, health and welfare of its
citizens.” Appx. 20a (citing 35 P.S. § 7210.102(b)(1); 34
Pa. Code § 403.34(b)). The Secretary explained that
“to carry out that police power and to protect life,
health, property and environment and to ensure the
safety and welfare of the general public and the owners, occupants and users of buildings and structures,
the Uniform Construction Code mandates plans review and inspections of all building construction projects.” Ibid (cleaned up). The Secretary offered to excuse the Commission’s violation of the Uniform Construction Code if it agreed to submit to the Department’s regulations in other areas, such as allowing
inspection over the construction of elevators and fuelpumping stations. Appx. 20a-21a. The Commission
did not agree and pushed forward with construction of
the administration building without state inspection.
Appx. 21a.

9
5. The Commission subsequently sued the Secretary seeking declaratory relief as to the parties’ rights
under the Compact and to enjoin it from imposing the
Commonwealth’s building regulations on the Commission. Appx. 21a. The District Court granted the
Commission’s preliminary injunction motion, enjoining the Secretary from directing the Department to
“seek[] to inspect or approve the elevators in the * * *
Scudder Falls Administration Building or from further impeding, interfering or delaying the Plaintiff’s
contractors or subcontractors from immediately repairing and activating the elevator systems.” Appx. 5a
(quoting preliminary injunction order).
The Secretary filed an answer and counterclaim
for declaratory relief explaining that Pennsylvania
had “reserved its regulatory power over certain property use matters as an exercise of its fundamental police powers to protect the health, safety and welfare of
its citizens.” Appx. 6a (quoting answer). Among these
reserved regulatory powers was the ability to enforce
“critical safety-based laws applying to building construction, elevator construction, boiler installation
and operation, and combustible and flammable liquid
storage and dispensing.” Ibid.
Because of the preliminary injunction, the Commission completed construction of its administration
building with uninspected elevators and fueldispensing devices in place. Appx. 21a.
The District Court granted the Commission’s motion for summary judgment, declaring that “under the
express terms of the * * * Compact creating the
[Commission],” the Secretary “may not * * * unilaterally interfere, direct, inspect, or regulate” the Com-

10
mission’s “elevator operations” under the Uniform
Construction Code or the Commission’s “tanks,
pumps, and other fuel-dispensing devices” under the
Combustible and Flammable Liquids Act regulations,
at the Scudder Falls Administration Building. Appx.
6a (quoting district court order).
6. The Secretary appealed to the Third Circuit
Court of Appeals, which affirmed. Appx. 13a. The
Court of Appeals held that “[b]y expressly creating”
the Commission, Pennsylvania and New Jersey “relinquished all control over the [Commission] unless
otherwise stated in the compact.” Appx. 12a (quoting
HIP Heightened Independence & Progress, Inc. v. Port
Authority, 693 F.3d 345, 358 (3d Cir. 2012)). The mere
creation of the Compact, the Court of Appeals concluded, was an “expansive and clear” surrender of
state sovereignty over the Commission: “Pennsylvania
and New Jersey ‘relinquished all control over the
[Commission].” Appx. 12a (emphasis in original)
(quoting HIP, supra.).
REASONS FOR GRANTING THE WRIT
I. The Court of Appeals’ decision conflicts with
two centuries of this Court’s precedents,
which establish that silence is a retention of
sovereign power, not a relinquishment.
The Court has long held that “the police power of a
state * * * [is] one of the most essential powers of government—one that is the least limitable.” Hadacheck
v. Sebastian, 239 U.S. 394, 410 (1915). “The traditional police power of the States is defined as the authority to provide for the public health, safety, and morals
* * *.” Barnes v. Glen Theatre, 501 U.S. 560, 569

11
(1991) (plurality). This police power extends to ensuring the safety of buildings and their components. See,
e.g., United States v. Locke, 471 U.S. 84, 104 (1985).
The delegation of any state sovereign power is “a
very grave act,” Home Tel. & Tel. Co. v. City of Los
Angeles, 211 U.S. 265, 273 (1908), so potentially perilous to the “safety [of] the public interests,” In re Delaware R.R. Tax, 85 U.S. 206, 225 (1873), that only one
rule has sufficed—no “power of sovereignty, will be
held by this court to have been surrendered, unless
such surrender has been expressed in terms too plain
to be mistaken.” Jefferson Branch Bank v. Skelly, 66
U.S. (1 Black) 436, 446 (1861). This rule is universal.
Whoever the sovereign—Federal, State, or Tribal—
whatever the aspect of sovereignty at issue—taxing,
regulatory authority, or property rights—the rule is
the same. This rule is older than the Founding, is reflected in the Nation’s foundational documents, and
has been consistently upheld by the Court for two centuries.
At the time of separation from Great Britain, the
“United Colonies” declared themselves “Free and Independent States.” The Declaration of Independence
para. 32 (U.S. 1776); see Franchise Tax Bd. of Cal. v.
Hyatt, __ U.S. __, 139 S.Ct. 1485, 1493 (2020). Those
States enjoyed “all the rights and powers of sovereign
states,” including rights to self-government, independence, and equality. Hyatt, 139 S.Ct. at 1493. Because of the paramount importance of those rights, “to
prevent the inadvertent surrender” of sovereign rights
and potential conflicts between States over ambiguous
surrenders, “the law of nations” required the surrender of sovereign rights “to be set forth in clear and express terms.” Id. at 852, 854-855, citing 1 M. de Vat-

12
tel, The Law of Nations (London, J. Newberry et al.
eds., 1760), intro § 22, bk. II, §§ 57, 300.
The Tenth Amendment embodies this principle:
“The powers not delegated to the United States by the
Constitution, nor prohibited by it to the states, are reserved to the states respectively, or to the people.” See
Hyatt, 139 S.Ct. at 1496; Sturges v. Crowninshield, 17
U.S. (4 Wheat) 122, 193 (1819); Anthony J. Bellia, Jr.
& Bradford R. Clark, The International Law Origins
of American Federalism, 120 Colum. L. Rev. 835, 871
(2020). Madison emphasized the rationale in Federalist No. 45, stating “[t]he powers delegated * * * to the
Federal Government, are few and defined. Those
which are to remain in the State Governments are
numerous and indefinite,” and, therefore, impractical
to delineate.
Just as the Country, in its founding documents,
has followed this principle, so has this Court. In the
words of Chief Justice John Marshall, “[w]hen the
American people created [Congress], with certain
enumerated powers, it was neither necessary nor
proper to define the powers retained by the states.”
Sturges, 17 U.S. at 193.
The necessity of express relinquishment of sovereignty has been emphasized in the specific context of
interstate compacts. In Tarrant Reg’l Water Dist. v.
Herrmann, 569 U.S. 614 (2013), a Texas Water District claimed that it had the right, under a compact
between several States, to cross state lines and divert
water from Oklahoma. Id. at 626. That right was
premised on the compact’s “silence concerning state
lines,” which, the Water District argued, created “a
borderless common in which each of the four signatory

13
States may cross each other’s boundaries to access a
shared pool of water.” Id. at 627. The Court rejected
this argument, refusing to infer from “silence regarding state borders that the signatory States have dispensed with the core state prerogative to control water within their boundaries.” Id. at 632. Because
“States rarely relinquish their sovereign powers,” the
Court “expect[ed] a clear indication of such devolution, not inscrutable silence.” Ibid. Therefore, by their
silence, the intent of the States was exactly the opposite of a surrender of state sovereignty—they did not
intend to grant each other cross-border rights.
In every other context as well, when the surrender
of sovereignty has been at stake, this Court has required a clear and express relinquishment.
Early, in Providence Bank v. Billings, 29 U.S. 514
(1830), a bank claimed that its charter, granted by the
Rhode Island Legislature, rendered it exempt from a
later-enacted taxing statute. Id. at 560. The Court rejected that argument because there was no express
provision in the charter promising exemption from the
State’s taxing authority. The Court emphasized that
“the relinquishment of such a power is never to be assumed.” Id. at 561.
The Court reaffirmed this principle when a Delaware bank claimed a similar exemption. See In re
Delaware R.R. Tax, 85 U.S. at 225-26. The language
exempting or limiting a sovereign’s right to tax “must
be clear beyond a reasonable doubt.” Id. at 225. Indeed, “[a]ll public grants are strictly construed,” for
“[n]othing can be taken against the State by presumption or inference. The established rule of construction

14
in such cases is that rights, privileges, and immunities not expressly granted are reserved.” Ibid.8
More recently, oil companies argued that a Native
Tribe surrendered its sovereign power to impose a
severance tax on them by not expressly reserving that
power in the parties’ lease agreements. See Merrion v.
Jicarilla Apache Tribe, 455 U.S. 130, 146 (1982). The
oil companies claimed the Tribe waived its taxing
power by “silence.” Id. at 148. This Court once again
rejected that argument because “sovereign power,
even when unexercised, is an enduring presence that
governs all contracts subject to the sovereign’s jurisdiction, and will remain intact unless surrendered in
unmistakable terms.” Ibid. To presume otherwise, the
Court admonished, would be to “turn the concept of
sovereignty on its head.” Ibid.
In United States v. Cherokee Nation of Oklahoma,
480 U.S. 700 (1987), the Court applied the unmistakability rule to a treaty between the United States and
the Cherokee Nation. Under that treaty, the Nation
acquired fee simple title to a riverbed. Id. at 701. The
Cherokee claimed that the United States had not reserved in the treaty its navigational servitude and so,
when the United States constructed a navigational
channel that destroyed mineral interests in the riverbed, the Nation had suffered a Fifth Amendment
taking entitling it to damages. Ibid. The Court sided
with the federal government and held that waiver of
the United States’ “sovereign authority” over the control and improvement of navigable waters, entrusted
to it through the Commerce Clause, “will not be imThe Court had other occasions to apply this same principle.
See, e.g., Home Tel. & Tel. Co., 211 U.S. at 273, 277.
8

15
plied, but instead must be ‘surrendered in unmistakable terms.’” Id. at 707, quoting Merrion, 455 U.S. at
148).
The Court of Appeals’ holding that Pennsylvania
ceded its sovereign authority through silence cannot
be reconciled with this Court’s precedents.
A. A compact is a unique legal document in
that it is a contract, a treaty, and a federal
statute. But in whatever form, silence
cannot cede sovereignty.
The rule set forth in the above precedents—that silence cannot cede sovereignty—holds true regardless
of whether an interstate compact is considered a contract, a treaty, or a federal statute. A compact bears
the hallmarks of all three. Tarrant, 569 U.S. at 628;
Green v. Biddle, 21 U.S. (8 Wheat.) 1, 92 (1821); see;
Alabama v. North Carolina, 560 U.S. 330, 351 (2010);
Hinderlider v. La Plata River & Cherry Creek Ditch
Co., 304 U.S. 92, 104 (1938); Zimmerman & Wendell,
The Law and Use of Interstate Compacts, 1-2, 7 (The
Council of State Governments 1976) (comparing a
compact to a contract, a treaty, and a statute).9
Where a contract is silent on a particular subject,
the “background” or “common-law rule speaks in the
silence of the Compact[.]” New Jersey v. New York,
523 U.S. 767, 784 (1998); see Tarrant, 569 U.S. at 632.
Thus, the “background notion that a State does not
A compact “is almost always a [state] statute,” too, just as
the Compact is here. Zimmerman and Wendell, supra at 1; 36
P.S. § 3401 et seq.; see also Lake Country Estates, Inc. v. Tahoe
Regional Planning Agency, 440 U.S. 391, 399 (1979).
9

16
easily cede its sovereignty” fills the silence in a compact. Tarrant, 569 U.S. at 631-32, see New Jersey, 523
U.S. at 783 n.6 (“the silence of the Compact was on
the subject of settled law governing avulsion, which
the parties’ silence showed no intent to modify”);
Home Bldg. & Loan Ass’n v. Blaisdell, 290 U.S. 398,
435 (1934) (“existing laws [are] read into contracts,”
including “the reservation of essential attributes of
sovereign power”).
For a treaty, it is the same, silence means the matter must “be treated as not covered”—“‘a principle so
obvious that it seems absurd to recite it.’” GE Energy
Power Comm’n France SAS Corp. v. Outkumpu Stainless USA LLC, __ U.S. __, 140 S.Ct. 1637, 1645 (2020),
quoting A. Scalia & B. Garner, Reading Law: The Interpretation of Legal Texts 93 (2012). And if not covered, then, as “the founding era’s foremost expert on
the law of nations,” Emmerich de Vattel, explained in
his classic text, The Law of Nations, the default rule
or presumption that sovereignty is retained applies.
Vattel, supra, at bk. II, §§ 57, 300; see Hyatt, 139 S.Ct.
at 1493.
For a statute, likewise, it must “be read
with presumption favoring the retention of longestablished and familiar principles.” Isbrandtsen Co.
v. Johnson, 343 U.S. 779, 783 (1952). Again, the longstanding presumption is that sovereignty is retained
unless expressly relinquished.

17
B. The Court of Appeals upended fundamental principles concerning the relinquishment of state sovereignty.
Previously, the Court of Appeals had correctly applied these principles. For example, in Pivesky v.
Ridge, 98 F.3d 730 (3d Cir. 1996), the compact in
question did “not explicitly state whether the commissioners” of the Delaware River Port Authority “may be
removed by the governor prior to the expiration of
their term.” Id. at 734. However, because the compact
gave the governor the power to appoint commissioners, the federal law presumption applied, meaning
that, in the absence of a contrary intent, the power of
removal from office is incident to the power of appointment. Ibid.
In International Union of Operating Engineers v.
Delaware River Joint Toll Bridge Commission, 311
F.3d 273 (3d Cir. 2002), the Court of Appeals correctly
recognized and applied the unmistakability rule. “By
compacting together to form the Commission, New
Jersey and Pennsylvania have each surrendered a
portion of their sovereignty over certain Delaware River bridge operations * * *.” Id. at 276 (emphasis added). But because of the importance of state sovereignty, such a surrender had to “be treated with great
care,” which meant following the rules of strict construction and unmistakability. Id. at 276, 280, citing
Jefferson Branch Bank, 66 U.S. at 446.
Yet, a decade later, the Court of Appeals broke
from this settled law. In HIP, that court stated that
“[b]y expressly creating the bi-state entity, [the compacting states] relinquished all control over the [compact entity] unless otherwise stated in the compact.”

18
693 F.3d at 358 (emphasis added). The Court of Appeals repeated that same error here.
The established principle, with respect to any aspect of sovereignty, including police powers, is that its
surrender must be express and unmistakable. Rather
than apply that principle, the Court of Appeals held
that compacting states “relinquish[ ] all control” over
the compact entity except for those powers expressly
reserved. Appx. 12a (emphasis in original). Because of
this fundamental error, the Court of Appeals not only
failed to focus on what the Compact did not say concerning police powers, but focused on provisions that
had nothing to do with those powers.
The Court of Appeals pointed to Article II, Section
j of the Compact, which authorizes the Commission
“[t]o acquire, own, use, lease, operate, and dispose of
real property and interest in real property, and to
make improvements thereon.” Appx. 12a (opinion);
Appx. 66a (Compact Art. II(j)). This allows the Commission to do nothing more than what other individuals or entities may do: acquire real property and use it
as the owner sees fit—consistent with governing law.
Nothing inherent in the right of ownership of property, or the specific uses the Commission is authorized
to make of it, grants the Commission an exemption
from a police power regulation of that property.10 See,
e.g., Lucas v. South Carolina Coastal Council, 505
Even the Commonwealth’s own buildings are not exempt
from safety regulations. Section 105(b) of the Pennsylvania Construction Code Act provides that the Department “shall maintain
plan and specification review and inspection authority over all
State-owned buildings. State-owned buildings shall be subject to
regulations promulgated under this act.” 35 P.S. § 7210.105(b).
10

19
U.S. 1003, 1034 (1992) (Kennedy, J. concurring)
(“Property is bought and sold, investments are made,
subject to the State’s power to regulate”).
Another Compact provision authorizes the Commission to “[t]o determine the exact location, system,
and character of, and all other matters in connection
with, any and all improvements or facilities which it
may be authorized to own, construct, establish, effectuate, maintain, operate or control.” Appx. 66a (Compact Art. II(n)). This provision allows the Commission
to determine where to locate facilities or improvements that it acquires or constructs, an entirely unremarkable, un-sovereign-like authority. The Commission, like other owners of real property within
Pennsylvania, may operate and maintain its property.
But nothing in the Compact or applicable law supports the leap from this unremarkable premise to the
District Court’s conclusion that the “states agreed to
surrender their power to regulate the Commission’s
building improvements to the Commission.” Appx. 57a
(district court opinion); see also, Appx. 12a-13a (circuit
court opinion).
Finally, Article II, Section p, authorizes the Commission to “exercise all other powers” not inconsistent
with the constitutions of the United States or the creating states that “may be reasonably necessary or incidental” to the effectuation of those purposes or the
exercise of other powers granted by the Compact.
Appx. 67a (Compact Art. II(p)). Largely on the basis of
this “all other powers” language, the Court of Appeals
determined that Pennsylvania and New Jersey “ceded
sovereign authority to the Commission” over health
and safety police powers and “did not intend to retain
the authority to enforce building safety regulations.”

20
Appx. 13a. Respectfully, the provision says nothing of
the sort.
This provision does not even mention the compacting States’ sovereign authority (or any of their authority), so it can hardly be an express and unmistakable
basis on which they relinquish such authority. Rather, it simply grants the Commission those powers
that are reasonably necessary or incidental to effectuating its authorized purposes or exercising its other
powers. Moreover, in its analysis, the Court of Appeals ignores the remainder of this provision, which
cabins the authority to “generally exercise, in connection with its property * * * any and all powers which
might be exercised by a natural person or a private
corporation in connection with similar property and
affairs.” Appx. 67a (Compact Art. II(p) (emphasis added). This language confirms what the rest of the Compact makes clear: the Commission is subject to the
same sovereign authority of the Commonwealth to
regulate building safety as are other individuals or
entities owning real property within Pennsylvania.
In sum, the Court of Appeals “turn[ed] the concept
of sovereignty on its head,” Merrion, 455 U.S. at 148,
presuming that the compacting States “[b]y expressly
creating the bi-state entity * * * relinquished all control over the entity unless otherwise stated in the
compact.” Appx. 12a. The Court needs to address this
radical departure from its long-established precedent
concerning the fundamentals of sovereignty. See Sup.
Ct. R. 10(c).

21
II. The Court of Appeals’ decision on the surrender of sovereignty conflicts with decisions from the Second Circuit and New
York’s highest court.
The Court’s review is also necessary to resolve a
split between the Third and Second circuits, and between New York’s and New Jersey’s highest courts.
See Sup. Ct. R. 10(a).
Since at least 1949, the State of New York has recognized that creatures of a compact are “not a sovereign” and “[i]n executing [a] Compact the State of
New York has parted with none of its sovereign
rights.” Dep’t of Conservation, 1949 N.Y. O. Atty. Gen.
No. 118, *2 (1949) (internal quotation marks omitted).
“The fact that [a compact entity] is a bi-state agency
does not vest it with powers, exemptions and immunities beyond those specifically granted to it or incidental or necessary thereto[.]” Ibid. Accordingly, when
asked if the Port of New York Authority, an entity
created by a 1921 interstate compact, was subject to
the jurisdiction of the New York Water Power and
Control Commission, the Attorney General answered
unequivocally yes. “The assumption by the Port Authority that, as a matter of law, it is not bound by the
provisions of [New York’s water conservation law] is
contrary to law and transcends its powers. [The Water
Power and Control] Commission has full jurisdiction
in the premises to protect the public health and public
welfare of the citizens of Long Island * * *.” Id. at *3.
Citing this opinion a generation later, New York’s
highest court proclaimed that “New York and New
Jersey have each undoubted power to regulate the external conduct of [a compact entity], and it may hard-

22
ly be gainsaid that the [compact entity], albeit bistate,
is subject to New York’s laws involving health and
safety, insofar as its activities may externally affect
the public.” Matter of Agesen v. Catherwood, 260
N.E.2d 525, 526-27 (N.Y. 1970).11 That court held that
only the internal operations of the Port Authority,
particularly its power to fix the salaries of its employees, were protected from unilateral state regulation
because that was among the powers delegated to the
Port Authority by the compacting States. Ibid.
In recognizing this internal/external dichotomy,
the Second Circuit has classified health and safety
laws as regulating external operations. See Dezaio v.
Port Auth. of N.Y. & N.J., 205 F.3d 62, 65 (2d Cir.
2000). Under this dichotomy, “states can still regulate
compact entities, as they can foreign corporations,
when their actions affect the health or welfare of the
citizens of the state through sufficient contacts with
the state.” Matthew S. Tripolitsiotis, Bridge Over
Troubled Waters: The Application of State Law to
Compact Clause Entities, 23 Yale L. & Pol'y Rev. 163,
182 (2005).
The Third Circuit and New Jersey Supreme Court,
however, have explicitly rejected the internal/external
dichotomy. See HIP Heightened Indep. & Progress,
Inc. v. Port Auth. of New York & New Jersey, 693 F.3d
The notion that compacting States have “undoubted power
to regulate the external conduct” of a compact entity may stem
from this Court’s “reserved powers” doctrine. U.S. Trust Co. of
N.Y. v. N.J., 431 U.S. 1, 22-23 (1977), citing Stone v. Mississippi,
101 U.S. 814, 817 (1880); see also U.S. v. Winstar Corp., 518 U.S.
839, 922 (1987) (Scalia, J., concurring) (stating that the “reserved
powers” doctrine has “not been well defined by [the Court’s] prior
cases”).
11

23
345, 357 (3d Cir. 2012) (“There is no basis in Third
Circuit precedent for the internal-external distinction,
nor would such a distinction necessarily be wellfounded”); Eastern Paralyzed Veterans Ass’n, Inc. v.
City of Camden, 545 A.2d 127, 132 (N.J. 1988).
A split exists where the “conflicting courts would
actually reach different results given the same set of
facts.” Timothy S. Bishop, et al., “Considering Supreme Court Review,” Federal Appellate Practice, 648
(ed. Philip Allen Lacovara 2008). That is the case
here. Under Second Circuit and New York law, the
Commission would have been required to comply with
Pennsylvania’s health and safety laws, including the
elevator operations and fuel safety regulations. The
Scudder Falls Administration Building is open to the
public, with a public reception area and public parking. Pennsylvania residents who visit the building
could be injured by improperly installed and maintained elevators. And Pennsylvania firefighters and
emergency personnel could be placed in unnecessary
peril by improper fuel dispensing operations.
Moreover, this split impacts the largest compact
entity in the Nation: the Port Authority of New York
and New Jersey. The Port Authority, established by
compact in 1921, covers 1,500 square miles in both
states and manages five airports, four bridges, two
tunnels, a rail system, bus terminals, one of the Nation’s largest ports, and the World Trade Center.12
Because the Port Authority straddles this jurisprudential divide, different legal rules apply when it is
See Port Authority’s 2019 Annual Report at 2, 10, found at
https://www.panynj.gov/corporate/en/financial-information/
annual-report.html#annualreports (last visited June 2021).
12

24
sued on the New York side of the Hudson River and
when it is sued on the New Jersey side.
These divergent approaches stem from ambiguities
inherent in interstate compacts. Again, compacts are
a departure from the traditional role of individual
states, which oversee and are responsible for what occurs within well-defined state borders. See, e.g., Morgan v. Virginia, 328 U.S. 373, 386 (1946) (“no state
law can reach beyond its own border”). Entering into a
compact changes that; for specified purposes, the
compacting States take on a less familiar role. They
become jointly responsible for what the compact entity
does through shared power. See Hess, 513 U.S. at 42
n.11, citing Port Auth Trans-Hudson Corp. v. Feeney,
495 U.S. 299, 314 (1990) (Brennan, J., concurring).
How, if at all, each State’s own laws will, or should,
have a bearing on compact operations— which, by definition, bleed across formal state boundaries—falls
outside traditional principles of horizontal and vertical federalism. It is the role of this Court to address,
when necessary, this reality and determine when a
compact entity can achieve its purpose without undermining the autonomy of the compacting states.
Once entered and legislatively approved, a compact is generally designed to remain in force indefinitely. As the Court itself has emphasized, for compacting states it is impossible to anticipate every possible contingency and address every possible issue in
the compact itself. Sims, 341 U.S. at 28 (“all avoidance of disputes as to scope and meaning [of a compact] is not within human gift”). “[L]egislatures often
do not contemplate the myriad of issues that the bistate entity will face and instead use vague language
that creates ambiguity.” Tripolitsiotis, supra at 166-

25
167. At the same time, paradoxically, compacts have
become increasingly complex in recent years. Jacob
Finkel, Note, Stranger in the Land of Federalism: A
Defense of the Compact Clause, 71 Stan. L. Rev. 1575,
1579 (2019). Ambiguity and complexity, in turn, beget
legal uncertainty about what each compacting state
may or must do, independently or jointly, and under
what legal authority. Ibid. (“states considering compact formation struggle to understand what they are
permitted to do”).
In addition, this case presents a separate problem
on which this Court’s guidance is desperately needed.
With regard to the applicability or inapplicability of
one state’s health and safety laws to the operations or
activities of a compact entity, both case law, e.g., Agesen, 260 N.E.2d at 526-527, and scholarly commentary, e.g., Tripolitsiotis, supra at 181-183, attempt to
differentiate between situations involving the compact
entity’s “internal” conduct or operations and those
situations involving “external” conduct or operations.
See, e.g., Dezaio,, 205 F.3d at 65 (“internal operations
of the Authority—unlike its external conduct which is
subject to each of the Compact State’s health and
safety laws—are independent from the unilateral control of either State without the other’s concurrence”).
Under this rubric, an individual state’s law is basically irrelevant, and therefore inapplicable, in the former
scenario, but will govern as usual in the latter.
There are, however, no established benchmarks
whereby states, compact entities, and others can confidently determine what is “internal” and what is “external.” New York’s Highest Court characterized the
employment-related policies of the Port Authority of
New York and New Jersey as affecting “internal oper-

26
ations,” meaning New York’s prevailing wage statute
could not be applied to the Port Authority. Agesen,
260 N.E.2d at 525. Yet even that court rightly recognized that “the lines of external and internal operation may shift.” Id. at 527; see also Tripolitsiotis, supra at 182 (“the line between internal and external is
blurred at times”). Are a compacting entity’s employment-related policies strictly “internal” and so need
not conform to state labor laws? Cf. HIP, 693 F.3d at
357-58 (finding “no basis in [controlling] precedent for
the internal-external distinction”).
The Second Circuit in Dezaio suggested that “a
Compact State’s health and safety laws” pertain, by
definition, to “external conduct.” If so, Pennsylvania’s
statutory building safety and inspection requirements
qualify as state “health and safety laws” that remain
applicable when, as here, a brand-new building is
erected, notwithstanding Pennsylvania’s earlier entry
into a compact. Even if the Commission’s general decision to provide its officials and employees with a
suitable new facility within which to do their jobs is
deemed “internal,” at some point the process of effectuating that decision will also entail “external” conduct and concerns, with public health and safety implications.
In short, because of the nature of compacts, the
law surrounding these entities is murky. And this
Court has long recognized the special role it plays as
the source of clarity. See Sims, 341 U.S. at 26; Delaware River Joint Toll Bridge Commission v. Colburn,
310 U.S. 419, 427 (1940). Only an answer from this
Court will bring an end to this confusion and clarify
whether a State abandons its sovereignty over the
health and safety of its citizens through silence.

27
III. The use of compacts is widespread, affecting
the National interest, and the Court of Appeals’ decision has the potential to destabilize compacts across the United States.
From the Nation’s founding through the early
twentieth century, just 36 compacts were adopted. Jill
Elaine Hasday, Interstate Compacts in a Democratic
Society: The Problem of Permanency, 49 Fla. L. Rev.
1, 4 n.18 (1997). Since then, the number has ballooned, such that now “compacts are everywhere.”
Finkel, supra, at 1577. Today, there are more than
200 active interstate compacts. Council for State Governments, National Center for Interstate Compacts,
Frequently
Asked
Questions
at
1,
https://tinyurl.com/y6jsky9d (visited May 20, 2021)
(CSG Compacts). They run the gamut, covering diverse aspects of state sovereignty, such as civil defense, education, emergency management, energy, law
enforcement, probation and parole, transportation,
and taxes. Id. at 2; see Finkel, supra at 1578 (“countless little-noticed compacts are the sine qua non backbone of interstate initiatives integral to our daily
lives”). The Court of Appeals’ decision threatens the
very viability of these compacts.
The Court of Appeals held that “Pennsylvania ceded its sovereign authority to enforce its building safety regulations as to the Scudder Falls Administration
Building.” Appx. 3a. In light of the Court of Appeals’
decision, by extension, the Commission need not install fire alarm systems, 34 Pa. Code § 50.52, can
dump raw sewage from its building into the Delaware
River, 35 P.S. § 691.202, and is exempt from elevator
inspection, 34 Pa. Code § 7.15.

28
More critically, if all aspects of state sovereignty
are relinquished unless expressly retained, as the
Court of Appeals held, then the Commission is an independent entity. It is a sovereign, akin to Vatican
City, not along the Tiber, but along the Delaware River. Such a sovereign is free to determine its own laws
and regulations. And not just the Commission, but
every other compact entity, which, by virtue of their
creating States’ failure to do the impossible—to reserve every aspect of state sovereignty, even aspects
unimaginable at the time of creation—is now independent.
Further, with the Third Circuit’s rule in place,
States will hesitate before entering into compacts. The
drafting of a compact is already a difficult task, even
when done with “great care and deliberation.” Sims,
341 U.S. at 28; Tripolitsiotis, supra at 203 (the drafting and negotiating “process is a slow and deliberate
exercise”); CSG Compacts at 2 (highlighting that
compacts “require a great deal of time to * * * develop”). The Court of Appeals’ rule makes drafting a
comprehensive compact that protects every aspect of
sovereignty impossible. States would have to anticipate the future loss of sovereignty13 and fear the unwitting loss of sovereignty they rightly believe they
possess. Consequently, regional problems—including
For example, in the 1930s, the drafters of this Compact
could not have envisioned the explosion of state environmental
regulatory authority or freedom of information laws and their
impacts on compacts. See Seattle Master Builders Ass’n v. Pacific
Northwest Elec. Power & Conservation Planning Council, 786
F.2d 1359, 1371 (9th Cir. 1986); Mitskovski v. Buffalo & Fort
Erie Public Bridge Auth., 689 F.Supp.2d 483, 489-91 (W.D. N.Y.
2010); KMOV TV, Inc. v. Bi-State Dev. Agency, 625 F.Supp.2d
808, 814 (E.D. Mo. 2008).
13

29
those that implicate national interests—will go unaddressed. See Hess, 513 U.S. at 40; Sims, 341 U.S. at
27; Finkel, supra, at 1593. But all this can be avoided
by this Court’s reaffirmance of its longstanding precedent—only a State’s express relinquishment of sovereignty will work a surrender; every other aspect of
sovereignty is retained.
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania
J. BART DELONE
Chief Deputy Attorney General
Counsel of Record
CLAUDIA M. TESORO
SEAN A. KIRKPATRICK
Senior Deputy Attorney General
DANIEL B. MULLEN
MICHAEL J. SCARINCI
Deputy Attorney General
Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17102
(717) 783-3226
June 11, 2021

COUNSEL FOR PETITIONER

APPENDIX

1a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 20-1898
_____________
DELAWARE RIVER JOINT TOLL BRIDGE
COMMISSION
v.
SECRETARY PENNSYLVANIA DEPARTMENT
OF LABOR AND INDUSTRY,
Appellant
_____________
On Appeal from the United States District Court for
the Eastern District of Pennsylvania
(D.C. No. 2-19-cv-02978)
District Judge: Honorable Mark A. Kearney
_____________
Argued on November 12, 2020
Before: HARDIMAN, SCIRICA, and RENDELL,
Circuit Judges
(Filed: January 12, 2021)

2a
Thomas W. Nardi, Jr.
Jeffrey M. Scott [Argued]
Shelley R. Smith
Archer & Greiner
Three Logan Square
1717 Arch Street, Suite 3500
Philadelphia, PA 19103
Counsel for Appellee Delaware River
Joint Toll Bridge Commission
Bruce P. Merenstein [Argued]
Schnader Harrison Segal & Lewis LLP
1600 Market Street
Suite 3600
Philadelphia, PA 19103
Darryl J. Liguori Marsha A. Sajer
Pennsylvania Department of Labor & Industry Office
of General Counsel
651 Boas Street 10th Floor
Harrisburg, PA 17121
Counsel for Appellant Secretary Pennsylvania
Department of Labor and Industry
_____________
OPINION OF THE COURT
_____________

3a
HARDIMAN, Circuit Judge.
This dispute concerns an interstate compact
between Pennsylvania and New Jersey that created
the Delaware River Joint Toll Bridge Commission.
The Commission obtained from the District Court a
declaratory judgment that prohibited the Secretary of
the Pennsylvania Department of Labor and Industry
from regulating aspects of the Commission’s new
Scudder Falls Administration Building in Bucks
County, Pennsylvania. The Secretary appeals,
claiming the District Court erred by holding that
Pennsylvania ceded its sovereign authority to enforce
its building safety regulations when it entered into
the Compact. We will affirm.
I
In 1934, the Pennsylvania and New Jersey
legislatures enacted laws creating the Commission,
which Congress approved in 1935 under the Compact
Clause of the United States Constitution. See U.S.
CONST. art. I, § 19, cl. 3. The Commission was tasked
with, among other things, “the acquisition of toll
bridges over the Delaware River,” and “[t]he
administration, operation, and maintenance” of such
bridges. Act of Aug. 30, 1935, Pub. L. No. 74-411, § 9,
49 Stat. 1051, 1059.1

The Compact has been amended several times since its
creation in 1935; none of these amendments have altered the
relevant language here. See e.g., Federal Aid Highway Act of
1987, § 151, Pub. L. No. 100-17, 101 Stat. 132, 206. The Compact
is also codified in Pennsylvania’s and New Jersey’s statutes. See
36 PA. CONS. STAT. § 3401; N.J. STAT. § 32:8-1 et seq.
1

4a
To assist the Commission in the discharge of its
duties, Pennsylvania and New Jersey granted it the
power “[t]o acquire, own, use, lease, operate, and
dispose of real property and interest in real property,
and to make improvements thereon,” as well as “[t]o
determine the exact location . . . and all other matters
in connection with, any and all improvements or
facilities which it may be authorized to own,
construct, establish, effectuate, maintain, operate or
control.” Id. at 1060. The Commission also was
granted sweeping authority
[t]o exercise all other powers . . . reasonably
necessary or incidental to the effectuation of its
authorized purposes or to the exercise of any of
the powers granted to the commission . . . except
the power to levy taxes or assessments for
benefits; and generally to exercise, in connection
with its property and affairs and in connection
with property under its control, any and all
powers which might be exercised by a natural
person or a private corporation in connection
with similar property and affairs.
Id. Since its creation, the Commission has “owned,
constructed, operated, and maintained bridges
between the two states under the Compact.” Del.
River Joint Toll Bridge Comm’n v. Oleksiak, -- F.
Supp. 3d --, 2020 WL 1470856, at *2 (E.D. Pa.
2020).
The controversy giving rise to this appeal began in
2017, when the Commission undertook a project to
replace the Scudder Falls Bridge that connects Bucks
County, Pennsylvania with Mercer County, New
Jersey. As part of that project, the Commission
purchased ten acres of land near the bridge on the
Pennsylvania side of the river and broke ground on
the Scudder Falls Administration Building, which

5a
would house the Commission’s executive and
administrative staff in a single location. A year later,
inspectors with the Pennsylvania Department of
Labor and Industry observed construction at the site,
even though the Commission never applied for a
building permit as required under the Department’s
regulations. The Department stated it would issue a
stop-work order for want of a permit. The Commission
responded that it was exempt from Pennsylvania’s
regulatory authority under the express terms of the
Compact.
The Commission pushed forward and completed
the Scudder Falls Administration Building. The
Department eventually turned its attention to the
Commission’s elevator subcontractor, threatening it
with regulatory sanctions for its involvement in the
project.
Within weeks of the threat against its elevator
subcontractor, the Commission filed a complaint
against the Secretary in the District Court seeking
declaratory and injunctive relief. The Commission
sought a declaration that the Department lacked the
authority to enforce Pennsylvania’s building
regulations (as well as its flammable and combustible
liquid regulations) “absent express language in the
Compact itself.” Dist. Ct. Dkt. No. 1. It also sought a
preliminary injunction to prevent the Secretary from
enforcing the Department’s regulations.
The District Court granted the Commission’s
preliminary injunction motion, enjoining the
Secretary from directing the Department to “seek[] to
inspect or approve the elevators in the . . . Scudder
Falls Administrative Building or from further
impeding, interfering or delaying the Plaintiff’s
contractors or subcontractors from immediately

6a
repairing and activating the elevator systems.” Dist.
Ct. Dkt. No. 16, at 2.
After the District Court granted the preliminary
injunction, the Secretary filed an answer and
counterclaim for declaratory relief. The Secretary
denied the Commission’s claims that Pennsylvania
lacked the power to enforce its building and safety
regulations against the Commission. In the
Secretary’s view, Pennsylvania “reserved its
regulatory power over certain property use matters as
an exercise of its fundamental police powers to protect
the health, safety and welfare of its citizens.” Dist. Ct.
Dkt. No. 17, at 24. Among the claimed reserved
regulatory powers was the ability to enforce “critical
safety-based laws applying to building construction,
elevator construction, boiler installation and
operation, and combustible and flammable liquid
storage and dispensing.” Id.
In February 2020, the parties filed cross-motions
for summary judgment. As relevant here, the District
Court granted the Commission’s motion for
declaratory relief, reasoning that “under the express
terms of the . . . Compact creating the [Commission],”
the Secretary “may not . . . unilaterally interfere,
direct, inspect, or regulate” the Commission’s
“elevator operations” under the Pennsylvania Uniform
Construction Code or the Commission’s “tanks,
pumps, and other fuel-dispensing devices” under the
Department’s Combustible and Flammable Liquids
Act regulations, at the Scudder Falls Administration
Building. Dist. Ct. Dkt. No. 67, at 2. The Secretary
timely appealed.

7a
II
The interpretation of a bi-state compact approved
by Congress presents a federal question. Int’l Union
of Operating Eng’rs, Local 542 v. Del. River Joint Toll
Bridge Comm’n, 311 F.3d 273, 275 (3d Cir. 2002)
(citation omitted). The District Court had jurisdiction
under 28 U.S.C. § 1331, and our jurisdiction lies
under 28 U.S.C. § 1291. Id.
III
The Secretary first claims the District Court
lacked jurisdiction because the Commission’s
complaint was barred by the Eleventh Amendment to
the United States Constitution. The Eleventh
Amendment states: “The Judicial power of the United
States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of
the United States by Citizens of another State, or by
Citizens or Subjects of any Foreign State.” U.S.
CONST. amend. XI. Although the text of the Eleventh
Amendment only explicitly mentions “Citizens of
another State, or . . . Citizens . . . of any Foreign
State,” the Supreme Court has consistently held the
scope of state immunity extends beyond the text of the
Eleventh Amendment. See, e.g., Hans v. Louisiana,
134 U.S. 1, 14–15 (1890) (holding the Eleventh
Amendment bars suits against a state commenced by
its own citizens); Principality of Monaco v.
Mississippi, 292 U.S. 313, 330 (1934) (same as to
foreign nations); Blatchford v. Native Vill. of Noatak
& Circle Vill., 501 U.S. 775, 779 (1991) (“[W]e have
understood the Eleventh Amendment to stand not so
much for what it says, but for the presupposition of
our constitutional structure which it confirms.”). As a

8a
general rule, “‘federal courts may not entertain a
private person’s suit against a State’ unless the State
has waived its immunity or Congress has permissibly
abrogated it.” Waterfront Comm’n of N.Y. Harbor v.
Governor of N.J., 961 F.3d 234, 238 (3d Cir. 2020)
(quoting Va. Off. for Prot. & Advoc. v. Stewart
(VOPA), 563 U.S. 247, 254 (2011)).2
Under a federal court’s equitable powers, however,
there is an important exception to this general rule: in
certain circumstances, a plaintiff may bring a federal
suit against state officials. See Ex parte Young, 209
U.S. 123 (1908). In such cases, state officials are
stripped of their official or representative character
and thereby deprived of the State’s immunity when
they commit an ongoing violation of federal law.
Waterfront Comm’n, 961 F.3d at 238.
The legal fiction recognized in Ex parte Young is
narrow in scope. See Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 114 n.25 (1984). It requires
us to “conduct a straightforward inquiry into whether
the complaint alleges an ongoing violation of federal
law” and whether it “seeks relief properly
characterized as prospective.” Verizon Md., Inc. v.
Pub. Serv. Comm’n of Md., 535 U.S. 635, 645 (2002)
(cleaned up).
The terms of the Compact adopted by Congress are
federal law. See Operating Eng’rs, 311 F.3d at 275. By
alleging the Secretary’s actions would violate the

A state-created entity, such as the Commission, with the
power “[t]o sue and be sued,” Pub. L. No. 74-411, § 9, 49 Stat. at
1060, may bring an action against a state subject to the same
Eleventh Amendment limitations as a private citizen. See VOPA,
563 U.S. at 256 (“[T]he validity of an Ex parte Young action [does
not] turn on the identity of the plaintiff.”).
2

9a
Compact the Commission has alleged an ongoing
violation of federal law.
The relief sought by the Commission—a
declaration as to Pennsylvania’s power to regulate the
Scudder
Falls
Administration
Building—is
prospective. Just as the injunction upheld in Ex parte
Young enjoined the Attorney General of Minnesota to
conform his conduct with federal law (the Fourteenth
Amendment), the relief sought here likewise requires
the Secretary to conform his conduct to federal law
(the Compact). See Ex parte Young, 209 U.S. 123, 145.
In sum, the Commission’s suit seeks prospective relief
to prevent an ongoing violation of federal law by the
Secretary. It falls squarely within the Ex parte Young
exception to sovereign immunity.
The Secretary argues Ex parte Young does not
apply because the Commonwealth of Pennsylvania,
not the Secretary, is the real party in interest. We
disagree. The relief sought—a declaration that the
Secretary cannot lawfully enforce Pennsylvania’s
building regulations against the Commission—neither
“expend[s] itself on the public treasury or . . .
interfere[s] with public administration,” nor operates
as “an order for specific performance of a State’s
contract.” Waterfront Comm’n, 961 F.3d at 239
(internal citations and quotation marks omitted).
First, the relief sought does not resemble a money
judgment that interferes with public administration.
While the declaratory judgment may have an impact
on Pennsylvania’s revenues (such as the loss of
inspection fees), “[s]uch an ancillary effect on the
state treasury is a permissible and often an inevitable
consequence of the principle announced in Ex parte
Young.” Edelman v. Jordan, 415 U.S. 651, 668 (1974).
Second, the relief sought is not specific
performance of a Pennsylvania contract. In arguing

10a
otherwise, the Secretary relies heavily on our recent
decision in Waterfront Commission. There, we
overturned the District Court’s order requiring New
Jersey “to continue to abide by the terms of [a bistate] agreement” after the State had taken the
affirmative step of repealing its earlier legislation
that had contributed to the formation of the compact.
Waterfront Comm’n, 961 F.3d at 237, 241–42. Forcing
New Jersey to abide by a compact it had expressly
rejected through proper legislative channels, we held,
was “tantamount to specific performance [that] would
operate against the State itself.” Id. at 241. Quite
unlike that situation, here Pennsylvania did not seek
to disavow the Compact. A declaratory judgment
requiring the Secretary to respect the Compact as
written does not constitute an impermissible order of
specific performance—to hold otherwise would allow
state officials to evade federal law by merely invoking
the Eleventh Amendment.
Because the relief sought would neither drain
public funds nor amount to “an order for specific
performance of a State’s contract,” Waterfront
Comm’n, 961 F.3d at 239, Pennsylvania is not the real
party in interest; the Secretary is.
Having confirmed our jurisdiction, next we
consider the scope of the powers Pennsylvania ceded
under the Compact.
IV
The
District
Court
found
Pennsylvania
unambiguously ceded some of its sovereign authority
through the Compact. “[W]e review de novo the text of
the Compact to determine whether we agree with the
District Court that it is unambiguous.” Wayne Land &
Min. Grp. LLC v. Del. River Basin Comm’n, 894 F.3d

11a
509, 528 (3d Cir. 2018). “[I]f we agree that the text is
unambiguous, then we also review de novo whether
[the Secretary’s] proposed activities . . . fall within the
scope of the Compact’s text.” Id.
Our decisions in Operating Engineers and HIP
Heightened Independence & Progress, Inc. v. Port
Authority (HIP), 693 F.3d 345, 358 (3d Cir. 2012), two
similar Compact Clause cases, guide our approach to
the Compact here. In Operating Engineers, we were
asked to determine whether New Jersey or
Pennsylvania collective bargaining laws could be
applied against the Commission. 311 F.3d at 274. We
refused “[t]o read into the Compact any collective
bargaining requirements” because the Compact’s
silence as to the authority of the States to enforce
such laws did not amount to a grant of permission. Id.
at 281. Mindful of the important “[p]rinciples of
federalism” at issue, we held that, absent express
language to the contrary, “[a] bi-state entity created
by compact, is ‘not subject to the unilateral control of
any one of the States that compose the federal
system.’” Id. (quoting Hess v. Port Auth. TransHudson Corp., 513 U.S. 30, 42 (1994)). To interpret
the Compact otherwise “would be to rewrite the
agreement between the two states without any
express authorization to do so.” Id. Now, as then,
“[t]hat is simply not our role.” Id.
Similarly, in HIP we considered a bi-state compact
that created the Port Authority of New York and New
Jersey, and addressed the power of New Jersey to
apply its civil rights and construction laws to property
of the Port Authority. HIP, 693 F.3d at 349. We
declined to enforce New Jersey’s statutes against the
Port Authority even though the Compact lacked an
“express surrender of state sovereignty regarding
external relations.” Id. at 358. Such an argument, we

12a
held, “misapprehends the notion of sovereignty
surrender” discussed by the Supreme Court in Hess
and this Court in Operating Engineers. Id. Although
“court[s] must be hesitant to find a surrender of
sovereignty where it is ambiguous,” the creation of a
bi-state entity pursuant to the Compact Clause is an
unambiguous surrender. Id. “By expressly creating
the bi-state entity, [the compacting States]
relinquished all control over the [entity] unless
otherwise stated in the compact.” Id. Here, as in HIP,
the surrender of sovereignty was expansive and clear;
Pennsylvania and New Jersey “relinquished all
control over the [Commission].” See id. (emphasis
added).
The specific language of the Compact also
indicates that Pennsylvania and New Jersey
delegated the relevant regulatory authority.
“Interstate compacts are construed as contracts under
the principles of contract law.” Tarrant Reg’l Water
Dist. v. Herrmann, 569 U.S. 614, 628 (2013). So we
look to “the express terms of the Compact as the best
indication of the intent of the parties.” Wayne Land,
894 F.3d at 527 (quoting Tarrant, 569 U.S. at 628).
As the District Court held, the Compact’s text
unambiguously cedes Pennsylvania’s sovereign
authority over building safety regulations. It grants
the Commission the power “[t]o acquire, own, use,
lease, operate, and dispose of real property and
interest in real property, and to make improvements
thereon,” as well as power over “all other matters in
connection with[] any and all improvements or
facilities which it may be authorized to own,
construct, establish, effectuate, maintain, operate or
control.” Pub. L. No. 74-411, § 9, 49 Stat. at 1060. In
defining real property, the Compact includes
“structures,” id. at 1062, i.e., “[t]hat which is built or

13a
constructed; an edifice or building of any kind,” see
Structure, BLACK’S LAW DICTIONARY (3d ed.
1933). Thus, the Compact grants the Commission the
authority to acquire property (the Scudder Falls site),
the ability to make improvements upon the property
(construction of the Administration Building), and the
power over “all other matters in connection with . . .
[its] facilities” (the operation and maintenance of
elevators).
Pennsylvania (and New Jersey) also ceded
sovereign authority to the Commission when they
authorized it, in the broadest terms, “[t]o exercise all
other powers . . . which may be reasonably necessary
or incidental to the effectuation of its authorized
purposes . . . except the power to levy taxes.” Pub. L.
No. 74-411, § 9, 49 Stat. at 1060 (emphasis added). As
the District Court noted, “[t]he ordinary meaning of
‘all other powers’ does not provide a limitation
retaining the Commonwealth’s police power.” Del.
River, 2020 WL 1470856, at *13. Finally, the fact that
Pennsylvania and New Jersey expressly reserved
their taxing power—but not other powers—supports
the District Court’s conclusion that they did not
intend to retain the authority to enforce building
safety regulations.
* * *
For the reasons stated, we hold Pennsylvania
ceded its sovereign authority to enforce its building
safety regulations as to the Scudder Falls
Administration Building. We will therefore affirm the
District Court’s declaratory judgment against the
Secretary of the Pennsylvania Department of Labor
and Industry.

14a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
DELAWARE RIVER
JOINT TOLL BRIDGE
COMMISSION
v.
W. GERALD OLEKSIAK

:
:
:
:
:
:
:

NO. 19-2978
CIVIL ACTION

MEMORANDUM
KEARNEY, J.

March 26, 2020

Faced with balancing competing interests of
thirteen sovereign states in forming a national
government, our Framers negotiated and the states
ratified the Compact Clause to the Constitution. The
Compact Clause authorized the sovereign states to
reach agreements, or “compacts,” for their common
welfare such as setting boundaries or forming
independent bi-state entities governed by the compact
terms to manage common interests. A compact
creating bi-state entities requires the states’ elected
representatives agreeing to surrender certain of their
citizens’ sovereign authority to this bi-state entity to
further their common welfare. The compact terms are
not federal law until approved by Congress. Over 230
years later, we today affirm the meaning of the
Compact Clause applied to a 1934 Compact approved
by Congress in 1935 after being negotiated by
Pennsylvania’s
and
New
Jersey’s
elected
representatives forming and defining the powers of a
bi-state commission to manage several bridge

15a
properties between the states north of Philadelphia.
The elected representatives agreed, and have not
changed their mind since, to grant the bi-state
commission the power to operate, improve, and
maintain its property including the structures
relating to the bridges.
In 2019, Pennsylvania asserted the bi-state
commission must pass its elevator inspections and
comply with its fuel storage law compliant with
Pennsylvania’s sovereign police power to ensure the
safety of her citizens as to a new administration
building for one of the bridges. The bi-state
commission disagreed. Both now move for summary
judgment representing there is no question of
material fact. They each ask we declare their rights
under the compact relating to the elevator inspections
and fuel storage at a newly constructed
administration building complex for the Scudder Falls
Bridge over the Delaware River connecting Bucks
County, Pennsylvania and Mercer County, New
Jersey.
We interpret the compact to unambiguously grant
the bi-state commission the authority to operate and
maintain its real property. Pennsylvania fails to
identify compact language where the elected
representatives retained sovereign police power over
the bi-state commission’s building improvements and
maintenance, or language where Pennsylvania’s
retention may be found ambiguous and we could
examine the parties’ course of dealing.
Pennsylvania agreed to create a bi-state
commission free from its unilateral control unless
both states agreed to regulate certain aspects of the
ongoing activities of the bi-state commission. They did
not agree to do so as to elevator inspections or fuel
storage regulations; they instead surrendered each

16a
state’s sovereign power to compel the bi-state
commission to subject its buildings to one state’s
inspection and building operation regulations. In
today’s Order, we declare Pennsylvania may not
impose its elevator inspection and fuel storage
regulations upon the administration building complex
for the Scudder Falls Bridge owned by the bi-state
commission.
I. Undisputed facts1
The Delaware River forms the entire border
between the Commonwealth of Pennsylvania and the
State of New Jersey. The two states share a natural
interest in safe and reliable river crossings to
facilitate
national and
regional
trade and
transportation. During the 1800s, the states assigned
bridge building and maintenance responsibilities to
private companies.2 These companies charged tolls to
bridge travelers to finance bridge operations while
profiting the excess.3 In the 1910s, the states—
1 Our Policies require a statement of undisputed material
facts and an appendix of exhibits in support of a Rule 56 motion.
The Commission filed a statement of undisputed material facts
and appendix in support of its motion for summary judgment.
See ECF Doc. No. 42. Secretary Oleksiak filed a statement of
undisputed material facts and appendix in support of his motion
for summary judgment. See ECF Doc. No. 43. We reference the
Commission’s Statement of Undisputed Facts as “Comm’n
SUMF” and its appendix as “Comm’n App.” We reference the
Secretary’s Statement of Undisputed facts as “Sec’y SUMF” and
his appendix as “Sec’y App.”

Delaware River Joint Toll Bridge Commission: 2016 Annual
Report,
https://www.njleg.state.nj.us/OPI/Reports_to_the_Legislature/DR
JTBC_AR_2016.pdf.
2

3

Id.

17a
motivated by the public’s increased use of cars—
changed course and formed the Joint Commission for
Elimination of Toll Bridges to acquire bridges for joint
state ownership.4 The states granted this Joint
Commission the power to use eminent domain to
acquire the land necessary to manage the bridges.5 By
the mid-1930s, the Joint Commission had successfully
purchased sixteen bridges from private owners.6
The states form the Commission governed by
Compact.
Over eighty-six years ago, the states then agreed
to create the Delaware River Joint Toll Bridge
Commission to jointly own and operate their
purchased bridges.7 The states carried forward powers
they granted to the earlier Joint Commission to the
new Commission, including the power to acquire new
bridges and use eminent domain.8 The elected
representatives of both states passed laws
surrendering certain of their sovereign powers first
recognized by our Framers in the Tenth Amendment
to the new Commission through an interstate
compact.9 Congress approved the states’ compact in
1935.10 The Commission has continually owned,
4

Id.

5

1919 Pa. Laws 148, Sec. 1; 1912 N.J. Laws 1594–97.

Delaware River Joint Toll Bridge Commission: 2016 Annual
Report, supra.
6

7

Id.

8

Sec’y App. 88a, Article III.

9

ECF Doc. No. 1 at ¶¶ 18–19; ECF Doc. No. 17 at ¶¶ 18–19.

10

ECF Doc. No. 1 at ¶ 20; ECF Doc. No. 17 at ¶ 20.

18a
constructed, operated, and maintained bridges
between the two states under the Compact since
then.11 The Commission today controls seven toll
bridges and thirteen toll-supported bridges along the
northern 140 miles of the states’ shared border.12
The Commission’s long-planned Scudder
Falls Bridge project.
One of the Commission’s toll bridges is the
Scudder Falls Bridge carrying Interstate 295 over the
Delaware River connecting Lower Makefield
Township in Bucks County, Pennsylvania with Ewing
Township in Mercer County, New Jersey.13 In 2002,
the Commission began discussing a project to replace
the Scudder Falls Bridge.14 Fifteen years later in
2017, the Commission began a four-and-a-half-year
project to replace the Scudder Falls Bridge.15
As a part of the project, the Commission purchased
a ten-acre parcel of land in Pennsylvania near the
Scudder Falls Bridge to construct a new
administration building to consolidate its executive
and administrative staff at a single location.16 The
Commission purchased the parcel from Lower
Makefield Township, Pennsylvania in 2016.17 The
Commission began constructing the facility the next
11

Sec’y App. 35a–38a (ECF Doc. No. 43-3).

12

Id. at 31a.

13

Id. at 35a-38a.

14

Id.

15

Id.

16

Id. at 76a.

17

Id.

19a
year.18 The Commission hired a contractor and
various subcontractors to finish the project.19
Pennsylvania demands compliance with
its regulations leading to this lawsuit.
After years of planning and after the Commission
purchased and began construction on its property, the
Commission’s project caught the eye of Pennsylvania’s
Department of Labor & Industry, an agency charged
with enforcing the Commonwealth’s Uniform
Construction Code.20 In November 2018, two
Department inspectors drove past the Scudder Falls
administration building construction site and
“observed that building construction had begun,
despite the [Commission’s] failure to apply for a
building permit” as required under Department
regulations.21 The two inspectors notified the
Department’s Uniform Construction Code Field
Operations Manager Jeffrey Criss.22 Manager Criss
18

Id.

19

Id. at 35a-38a.

Pennsylvania’s Department of Labor & Industry is a
cabinet-level agency administering and monitoring many
regulatory programs including through its Bureau of
Occupational and Industrial Safety, which “administers and
enforces the Uniform Construction Code, Fire and Panic Law,
Universal Accessibility Law, Energy Conservation Law, General
Safety Law, Boiler Law, Elevator Law, Liquefied Petroleum Gas
Law, Flammable & Combustible Liquids Law, Asbestos and
Lead Laws, Bedding and Upholstery Law, Stuffed Toy Law and
Private Employment Agency Licensing Law.” Laws and
Regulations Home, Department of Labor & Industry,
https://www.dli.pa.gov/laws-regs/Pages/default.aspx.
20

21

ECF Doc. No. 17 at ¶ 40 (citing 34 Pa. Code § 403.42a).

22

Id.

20a
advised the Commission he intended to send a
building inspector to the administration building to
issue a stop work order under the Department
regulations because the Commission did not have a
valid building permit.23 On November 30, 2018, the
Commission responded by stating it “is not subject to
the regulatory authority of the Commonwealth of
Pennsylvania” including the Department’s Uniform
Construction Code.24
On February 8, 2019, the Department’s Secretary,
W. Gerard Oleksiak, confirmed his disagreement with
the Commission asserting the Department “does not
concur with the [Commission’s] position” about not
being subject to the Uniform Construction Code.25 The
Secretary explained the Department “has not
surrendered its sovereignty, especially as it extends to
its sovereign police power to protect the safety, health
and welfare of its citizens.”26 The Secretary stated:
“[t]o carry out that police power and to protect life,
health, property and environment and to ensure the
safety and welfare of the general public and the
owners, occupants and users of buildings and
structures, the [Uniform Construction Code]
mandates plans review and inspections of all building
construction projects.”27 The Secretary offered to
excuse the Commission from obtaining a building
23

Id. (citing 34 Pa. Code § 403.81).

24

Sec’y App. 512a (ECF Doc. No. 43-4).

ECF Doc. No. 12-2 at p. 18. The Department’s Deputy
Secretary of Safety and Labor-Management Relations, Jennifer
L. Berrier, authored this letter. Id.
25

26

Id.

Id. (citing 35 P.S. § 7210.102(b)(1); 34 Pa. Code §
403.34(b)).
27

21a
permit “on this occasion only” if the Commission
agreed to submit to the Department’s regulations in
other areas, including allowing the Department to
“enforce the [Uniform Construction Code] with regard
to the elevators in the administration building at
Scudder Falls Bridge, and the Combustible and
Flammable Liquids Act with regard to any fuelpumping station that may be constructed.”28
The Commission did not agree with the Secretary.
It
pushed
forward
with
its
long-planned
administration building. The Secretary began
threatening to regulate Commission’s elevator
subcontractor.
Facing
this
involvement,
the
Commission sued the Secretary seeking declaratory
relief as to the parties’ rights under the Compact and
to enjoin him from imposing the Commonwealth’s
building regulations on the Commission.29 We
enjoined the Secretary from enforcing the elevator
inspection.30 The Secretary defended his earlier
position and counterclaimed for declaratory judgment
arguing the Department may unilaterally regulate
the Commission’s buildings.31 The Commission
completed construction with its elevators in place. The
parties do not have present dispute with either the
elevator inspection or fuel-pumping regulations. At
oral argument both parties represented these are
recurring as periodic licensing and inspection.
New Jersey did not take a position before us.

28

Id. at p. 19.

29

ECF Doc. No. 1.

30

ECF Doc. No. 16.

31

ECF Doc. No. 17 at ¶¶ 242–78.

22a
II. Analysis32
After extensive discovery and agreeing there are
no genuine issues of material fact, the Commission
and Secretary Oleksiak cross move for a declaratory
judgment: the Commission argues the Compact
precludes the Secretary from unilaterally imposing
the Commonwealth’s elevator and fuel-pumping
inspection regulations on the Commission without the
express intent of Pennsylvania’s and New Jersey’s
legislatures manifest in the Compact; and, the
Secretary argues the Commonwealth retains its
Summary judgment is proper when “the movant shows
that there is no genuine issue as to any material fact and that
the moving party is entitled to a judgment as a matter of law.”
Fed.R.Civ.P. 56(a). “Material facts are those ‘that could affect the
outcome’ of the proceeding, and ‘a dispute about a material fact
is ‘genuine’ if the evidence is sufficient to permit a reasonable
jury to return a verdict for the non-moving party.’” Pearson v.
Prison Health Services, 850 F.3d 526, 534 (3d Cir. 2017) (quoting
Lamont v. New Jersey, 637 F.3d 177, 181 (3d Cir. 2011)). On a
motion for summary judgment, “we view the facts and draw all
reasonable inferences in the light most favorable to the nonmovant.” Pearson, 850 F.3d at 533-34 (3d Cir. 2017) (citing Scott
v. Harris, 550 U.S. 372, 378 (2007)). “The party seeking
summary judgment ‘has the burden of demonstrating that the
evidentiary record presents no genuine issue of material fact.’”
Parkell v. Danberg, 833 F.3d 313, 323 (3d Cir. 2016) (quoting
Willis v. UPMC Children’s Hospital of Pittsburgh, 808 F.3d 638,
643 (3d Cir. 2015)). If the movant carries its burden, “the
nonmoving party must identify facts in the record that would
enable them to make a sufficient showing on essential elements
of their case for which they have the burden of proof.” Willis, 808
F.3d at 643 (citing Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986)). “If, after adequate time for discovery, the nonmoving
party has not met its burden, pursuant to Federal Rule of Civil
Procedure 56, the court must enter summary judgment against
the nonmoving party.” Id. (citing Celotex Corp., 477 U.S. at 322323).
32

23a
sovereign police power both through the Compact and
otherwise to enforce regulations at the Commission’s
buildings in Pennsylvania to ensure the safety of
Pennsylvania citizens.
Whether the Secretary may unilaterally regulate
the Commission’s maintenance and operation of its
buildings is a question of the rights and powers
Pennsylvania and New Jersey surrendered to the
Commission in their negotiated Compact. While the
Framers recognized each state’s sovereignty over
matters not given to the national government such as
local laws, property rights, and local law enforcement,
the Framers also granted each state the right to enter
into compacts agreeing to surrender their reserved
sovereign power to a third interstate agency not
controlled by the states but approved in the national
interest by Congress. These interstate agencies
generally are not subject to one state’s unilateral
control or to state regulation unless the compacting
states expressly agree.
States effect the purposes and powers of interstate
agencies through a negotiated agreement known as a
compact. The Compact before us negotiated by
Pennsylvania and New Jersey is largely the same
agreement Congress approved in 1935.33 The states
and Congress approved additional jurisdiction and
financing powers to the Commission in 1947, 1952,
and 1987.34 But the states’ agreement to expand the
Commission’s jurisdiction to “port and terminal
facilities” in 1953 “failed to gain full congressional
approval[.]”35
33

ECF Doc. No. 1 at ¶ 20; ECF Doc. No. 17 at ¶ 20.

34

Sec’y App. 53a (ECF Doc. No. 43-3).

35 Id. Congress did not consent to the 1953 Compact
Amendments when approving the supplemental agreement in

24a
We may only consider the terms of the Compact
approved by Congress.36 Through the congressionally
approved Compact, the states create the Commission
1987. See H.R. 2, 100th Cong. § 151 (1987) (enacted). At oral
argument, the Commission conceded the 1953 Compact
Amendments are not operative without the consent of Congress.
The Secretary attaches a copy of the Compact highlighting the
changes proposed 1953 Compact Amendments. See Sec’y App.
82a-96a (ECF Doc. No. 43-3). We cite this version of the Compact
throughout this Memorandum because the 1953 Amendments,
while never consented to by Congress, are still reflected in the
statutory codes of Pennsylvania and New Jersey. Compare 36
Pa. Stat. Ann. § 3401 and N.J. Stat. Ann. § 32:8-1 with Sec’y
App. 82a-96a (ECF Doc. No. 43-3). The 1953 amendments
contain important language delegating the Commission with
additional purposes and powers. See Delaware River Joint Toll
Bridge Commission: Hearing on H.R. 5347 and H.R. 6199 Before
the H. Interstate and Foreign Commerce Committee, 88th Cong.
17 (1963) (statement of Representative Willard S. Curtin). For
instance, the 1953 amendments expand the Commission’s
purposes
to
include:
“The
acquisition,
construction,
administration, operation and maintenance of such port and
terminal facilities within the district as the commission may
deem necessary to advance the interests of the two states[.]” See
Sec’y App. 84a (ECF Doc. No. 43-3).
The Secretary did not raise this issue when opposing the
Commission’s request for a preliminary injunction July 2019. In
then granting injunctive relief to the Commission, we looked to
the Compact as reflected in Pennsylvania’s statutory code. See
ECF Doc. No. 15. We now understand the compacting state
statutes contain language we cannot consider because Congress
never approved this 1953 language.
See Joseph F. Zimmerman, Interstate Cooperation:
Compacts and Administrative Agreements 59 (2nd ed. 2002) (“All
proposed compact amendments must pass through what can be
termed the hazardous process of obtaining their enactment by
each state legislature, approval of each governor, consent of
Congress, and approval of the president if the original compact
received such approval.”).
36

25a
as “a body corporate and politic” and “the public
instrumentality” of the two states.37 Pennsylvania and
New Jersey define the Commission’s purposes as
including
“administration,
operation,
and
maintenance of the joint State-owned bridges” and
“preparation of plans and specifications for, and
location, construction, administration, operation and
maintenance
of,
such
additional
bridge
communications over the Delaware River[.]”38The
states agreed the Commission “shall be deemed to be
exercising an essential government function[.]”39
We start with the powers the two states agreed to
give to the Commission “[f]or the effectuation of its

37

Sec’y App. 83a (ECF Doc. No. 43-3), Article I.

38

Id. As the states defined “bridge” in the Compact:

The word “bridge” . . . shall include such approach
highways and interests in real property necessary thereto
in said Commonwealth or said State as may be
determined by the commission to be necessary to facilitate
the flow of traffic in the vicinity of any such bridge, or to
connect such bridge with the highway system or other
traffic facilities in said Commonwealth or said State:
Provided, however, That the power and authority herein
granted to the commission in connection with the
approach highways shall not be exercised unless and until
the Department of Highways of the Commonwealth of
Pennsylvania shall have filed with the commission its
written approval as to approach highways to be located in
said Commonwealth and the State Highway Department
of the State of New Jersey shall have filed with the
commission its written approval as to approach highways
to be located in said State.
Id. at 91a, Article X.
39

Id. at 82a, Article I.

26a
authorized purposes.”40 Among these powers include
the authority:
• “To sue and be sued.”41
• “To enter into contracts.”42
• “To acquire, own, use, lease, operate, and
dispose of real property and interest in real
property, and to make improvements thereon.”43
• “To exercise the power of eminent
domain.”44
• “To determine the exact location, system,
and character of, and all other matters in
connection with, any and all improvements or
facilities which it may be authorized to own,
construct, establish, effectuate, maintain,
operate or control.”45
In addition to these specific powers, the elected
representatives of Pennsylvania and New Jersey
agreed to more broadly grant the Commission the
ability:
To exercise all other powers, not inconsistent
with the Constitutions of the States of
Pennsylvania and New Jersey or of the United
States, which may be reasonably necessary or
incidental to the effectuation of its authorized
40

Id. at 84a, Article II.

41

Id., Article II(b).

42

Id. at 85a, Article II(h).

43

Id., Article II(j).

44 Id. at 85a, Article II(m). In Article III of the Compact, the
states specify the Commission may exercise its eminent domain
power in each state consistent with the respective Pennsylvania
and New Jersey laws granting eminent domain authority to the
earlier Joint Commission. Id. at 88a, Article III.
45

Id. at 86a, Article II(n).

27a
purposes or to the exercise of any of the
foregoing powers, except the power to levy taxes
or assessments for benefits; and generally to
exercise, in connection with its property and
affairs and in connection with property under its
control, any and all powers which might be
exercised by a natural person or a private
corporation in connection with similar property
and affairs. 46
The states further agreed: “[t]he effectuation of
[the Commission’s] authorized purposes . . . is and will
be in all respects for the benefit of the people of the
Commonwealth of Pennsylvania and the State of New
Jersey, and for the increase of their commerce.”47 The
states agreed the Commission could exercise all
powers reasonably necessary to effect its stated
purposes and authorized powers including acquiring,
operating and improving their real property and to
determine the character of improvements or facilities
which it may be authorized to maintain, operate or
control.
While the states retained sovereign police power
over the Commission’s delegated power of eminent
domain and power to maintain streets and highways,
the Commonwealth and New Jersey did not retain
interests in the Commission acquiring, operating and
improving real property. Three specific examples
highlight the states’ reserving powers they arguably
surrendered. Pennsylvania and New Jersey first
agreed the Commission could exercise the powers of
eminent domain. But then, unlike when they
addressed improvement and maintenance of the
46

Id., Article II(p).

47

Id. at 90a, Article VIII.

28a
Commission’s facilities, the states specifically
required the Commission exercise eminent domain
powers in Pennsylvania consistent with the
Pennsylvania law creating the earlier Joint
Commission for the Elimination of Toll Bridges, and
to exercise eminent domain powers in New Jersey
consistent with the New Jersey law creating the
earlier Joint Commission.48 In a like manner, the
states, while granting the Commission power to
maintain streets and highways necessary to effect its
purpose, require the Commission seek consent from
the governing body of the local municipality and be
subject to reasonable police regulations established by
the local municipality.49 The states also reserved the
power to levy taxes and to “assess[] for benefits.”50
The states did not carve out a similar retained
interest for the states in the surrendered power of
improving and maintaining the Commission’s
property.
The immediate issue before us focuses on whether
the Commission must submit to the Department’s
48

Id. at 88a, Article III.

49

Id. at 93a, Article X(d):

The commission may enter upon, use, occupy, enlarge,
construct and improve, any street, road or highway,
located within the limits of any municipality, and deemed
by the commission to be necessary in connection with the
acquisition, construction, improvement, maintenance or
operation, of any bridge, owned or operated by the
commission, or of any bridge approaches, bridge plazas, or
approach highways to any such bridge, subject however to
the consent of the governing body of such municipality,
and to such reasonable police regulations as may be
established by such governing body.
50

Id. at 86a, Article II(p).

29a
elevator inspection and Combustible and Flammable
Liquid laws at the Scudder Falls administration
building.51 We apply a four-step analysis. First, we
determine whether there is a ripe need for declaratory
relief. Second, we inspect the background law on the
nature of interstate agreements under the Compact
Clause to understand whether there is an overarching
sovereign power preempting language in the
Compact. Third, we interpret the plain language
chosen by the states in the Compact, i.e., did the
states reserve their rights to inspect and approve
improvements to the Commission’s property. And,
fourth, if we find the Compact’s language is
ambiguous, we must look to other tools to aid our
interpretation, such as whether the Secretary
imposed building safety regulations against the
Commission in the past without objection or with
court approval.
After confirming our jurisdiction and reviewing the
background law governing compacts, we find the
elected representatives of Pennsylvania and New
Jersey unambiguously did not reserve Pennsylvania’s
or New Jersey’s sovereign police power to regulate the
Commission. They unambiguously surrendered “any
and all powers” to the Commission to make
improvements to its buildings other than those they
reserved (eminent domain, local police, and taxes).
Because the compacting states surrendered specific
power to the Commission to improve and maintain its
To the extent the parties seek a declaration beyond this
question, these requests fail to present an “actual controversy,”
see 28 U.S.C. § 2201, or are not ripe for our review under the
framework announced by our Court of Appeals for determining
the ripeness of requests for declaratory relief applied in Section
II.A of this Memorandum.
51

30a
buildings when they otherwise excepted other specific
powers, we cannot find the Commission is subject to a
silent overriding sovereign police power allowing one
of the two compacting states to interfere with the
Commission’s improvement and maintenance of its
property. The elected representatives have not, to
date, reserved or limited this authority given to the
Commission. We are not stretching or extending the
states’ chosen language. We are enforcing the
language of the Compact as negotiated by the
representatives of the sovereign states and approved
by Congress as in the national interest. Consistent
with the Compact’s unambiguous language, we grant
summary judgment for the Commission and enter a
declaratory judgment in its favor relating to the
construction, improvement, and maintenance of the
Scudder Falls administration building as it affects
elevator inspections and fuel storage regulations.
A. The parties’ requests for declaratory relief
are ripe.
The Commission and the Secretary agree we have
federal subject matter jurisdiction over the requests
for declaratory relief presently before us. The parties
also agree their claims are ripe for our review even
though the parties have progressed in completing the
elevators and do not presently have a dispute on a
particular fuel-storage regulation. We must still
independently assess our subject matter jurisdiction
and the ripeness of the parties’ claims.
We first consider whether we enjoy our limited
subject matter jurisdiction over the parties’ requests
for declaratory relief. The Constitution requires

31a
interstate compacts be approved by Congress. 52
Congressional approval transforms a compact into
federal law sustaining our jurisdiction under 28
U.S.C. § 1331.53
But our jurisdiction extends only to claims ripe for
resolution.54 “The function of the ripeness doctrine is
to determine whether a party has brought an action
prematurely, and counsels abstention until such time
as a dispute is sufficiently concrete to satisfy the
constitutional and prudential requirements of the
doctrine.”55 “The Supreme Court has stated that a
claim is ripe for review if it is fit for judicial decision
and withholding court consideration of the issue
would constitute a hardship to the parties.”56
The ripeness doctrine’s contours “are particularly
difficult to define with precision when a party seeks a
declaratory judgment.”57 To determine if a claim for a
declaratory judgment is ripe, our Court of Appeals
instructs us to consider three factors: “the adversity of
the parties’ interests, the conclusiveness of the
judgment, and the practical utility of that
52 U.S. Const. art. I, § 10, cl. 3 (“No State shall, without the
consent of Congress … compact with another State.”).

Tarrant Reg’l Water Dist. v. Herrmann, 569 U.S. 614, 620
(2013); Wayne Land & Mineral Grp. LLC v. De. River Basin
Comm’n, 894 F.3d 509, 521 (3d Cir. 2018).
53

54

Peachlum v. City of York, 333 F.3d 429, 433 (3d Cir. 2003).

55

Id.

56 Id. at 434 (citing Abbott Labs. v. Gardner, 387 U.S. 136,
149 (1967), abrogated on other grounds by Califano v. Sanders,
430 U.S. 99, 105, (1977)).

Wayne Land, 894 F.3d 509 at 527 (quoting Marathon
Petroleum Corp. v. Sec’y of Fin. for Del., 876 F.3d 481, 496 (3d
Cir. 2017)).
57

32a
judgment.”58 While the parties both believe this case
is ripe, we still independently consider these three
factors. Applying these factors, we agree the parties’
claims are ripe.
We look first to the adversity of the parties’
interests. We assess adversity by asking “[w]hether
the claim involves uncertain and contingent events or
presents a real and substantial threat of harm.”59 The
Commission and Secretary both present real and
substantial threats of harm. The Commission adduces
facts showing the Secretary has attempted and will
apply building safety and fuel-pumping regulations on
the Commission at its new administration building.
The Commission argues compliance with Department
regulations will cause it to incur substantial monetary
harm. The Secretary cites his duties—to apply
Department regulations to ensure buildings in the
Commonwealth are safe—and his inability to exercise
those duties as a legitimate and substantial threat of
harm.
Second, we must consider whether the parties
present “sufficiently concrete facts to allow for a
conclusive legal judgment.”60 A claim is fit “for
adjudication if a ‘declaratory judgment would in fact
determine the parties’ rights, as distinguished from
an advisory opinion based on a hypothetical set of
facts.’”61 “Cases presenting predominantly legal
questions are particularly amenable to a conclusive
determination in a pre-enforcement context, and
58

Id.

59

Id.

60

Id.

Id. (quoting Surrick v. Killion, 449 F.3d 520, 527 (3d Cir.
2006)).
61

33a
generally require less fact development.”62 The
Commission adduced sufficiently concrete facts to
allow for a conclusive judgment: the Commission built
its new administration building in Pennsylvania near
the Scudder Falls Bridge and the Secretary insists the
Commission submit to Department safety regulations
regarding the building’s elevators and fuel-pumping
stations at this building.
Third, we consider whether ruling on the parties’
request for declaratory relief has utility. “In the
context of the Declaratory Judgment Act, utility exists
when the judgment would ‘materially affect the
parties and serve . . . [to] clarify[] legal relationships
so that plaintiffs . . . [can] make responsible decisions
about the future.’”63 A ruling today would provide
particular utility. The Commonwealth, the State of
New Jersey, and Congress created the Commission in
1934 with Congress approving in 1935. Now, eightyfive years later, one of the contracting states argues it
may unilaterally regulate the Commission’s building
located within its sovereign borders. The Commission
argues it is not subject to unilateral regulation unless
specified in the Compact. Resolving this issue will
allow the Commission and the Secretary to make
responsible decisions about the future.

62

Id. (quoting Surrick, 449 F.3d at 527).

63

Id. (quoting Surrick, 449 F.3d at 529).

34a
B. Pennsylvania’s
and
New
Jersey’s
congressionally
approved
Compact
creating the Delaware River Joint Toll
Bridge Commission.
The parties’ claims for a declaratory judgment rest
on rights under the Compact creating the
Commission. We first inspect law governing interstate
agreements. We then interpret the Compact creating
the Commission “under the principles of contract
law.”64 “As with any contract, the analysis begins with
‘the express terms of the Compact as the best
indication of the intent of the parties.’”65 Only when
the express terms of the text are ambiguous must we
“turn to other interpretative tools to shed light on the
intent of the Compact’s drafters.”66
1. The purpose of compacts requires we
follow their negotiated terms.
Our Framers through the United States
Constitution established a federal system, delegating
certain political powers to Congress, President, and
federal courts and reserving—through the Tenth
Amendment—all other powers not prohibited to the
states and the people. The Framers did not “abolish
the sovereign powers of the States, which retained ‘a
residuary and inviolable sovereignty.’”67 Instead, the
64

Tarrant, 569 U.S. 614, 620 (2013).

65

Wayne Land, 894 F.3d at 527 (quoting Tarrant, 569 U.S. at

628).
66

Tarrant, 569 U.S. at 620.

Murphy v. Nat'l Collegiate Athletic Ass'n, 138 S. Ct. 1461,
1475 (2018) (quoting The Federalist No. 39, p. 345 (C. Rossiter
ed. 1961)).
67

35a
Framers created a system “of dual sovereignty” where
“the Federal Government and the States wield
sovereign powers.”68
The States also ratified the Framers prohibiting
them “from exercising some attributes of sovereignty”
in Section 10 of Article 1.69 The Framers’ prohibitions
largely relate to the sovereign rights “to be able to
make contracts and give consents bearing upon the
exertion of governmental power.”70 In one clause
termed the “Contract Clause,”71 the Framers
prohibited a state from “pass[ing] any . . . Law
impairing the Obligation of Contracts[.]”72 This
prohibition may include contracts entered by the state
with a private party.73 In another clause termed the
“Compact Clause,”74 the Framers provided: “No State
shall, without the Consent of Congress, . . . enter into
any Agreement or Compact with another State[.]”75
Through the Compact Clause, the Framers set a
mechanism to allow states to solve regional problems
and address interstate disputes. The Framers
mandated
these
interstate
compacts
receive
congressional consent so Congress could “exercise
68

Id. (citing Gregory v. Ashcroft, 501 U.S. 452, 457 (1991)).

69

Id.

70

U.S. v. Bekins, 304 U.S. 27, 51-52 (1938).

See, e.g., U.S. v. Winstar Corp., 518 U.S. 839, 873 (1996)
(referring to U.S. Const. art. I, § 10, cl. 1 as the “Contract
Clause”).
71

72

U.S. Const. art. I, § 10, cl. 1.

73

See Jefferson Branch Bank v. Skelly, 66 U.S. 436 (1861).

74, 434 U.S. 452, 472 (1978) (referring to U.S. Const. art. I, §
10, cl. 3 as the “Compact Clause”).
75

U.S. Const. art. I, § 10, cl. 3.

36a
national supervision” and ensure no interstate
agreement would threaten the Federal government.76
The interstate compacts establish a contractual
relationship between the party states protected from
impairment by the Contract Clause.77
States exercising the sovereign right to enter into
interstate compacts may yield certain rights reposed
in them by the Framers in the Tenth Amendment.78
As a seminal commentator in this subject observed:
“Just as, for the common peace and welfare, the
thirteen, sovereign States, in 1787, were willing to
relinquish the sovereign right of immunity from suit,
so the American states have, in the succeeding years,
found it feasible and desirable, by means of compact,
to relinquish the exercise of sovereign rights.”79 “By
such compacts, the authority over certain domestic
affairs of one state—part of the police power—a power
which the States have never surrendered to the
National Government and which they do not desire to
so surrender, may be yielded by one State to another,
if it shall be deemed to tend to peace and mutual
benefit.”80

Marian E. Ridgeway, Interstate Compacts: A Question of
Federalism 27 (1971).
76

77 Joseph F. Zimmerman, Interstate Cooperation: Compacts
and Administrative Agreements 35 (2nd ed. 2002).

See Bekins, 304 U.S. at 52 (“The reservation to the States
by the Tenth Amendment protected, and did not destroy, their
right to make contracts and give consents where that action
would not contravene the provisions of the Federal
Constitution.”).
78

79 Charles Warren, The Supreme Court and Sovereign States
70 (1924).
80

Id. at 74.

37a
With the benefit of studying over two hundred
years of compacts, we learn states enter interstate
compacts for varied reasons. One reason is the
“settlement of boundaries.”81 Another reason is to
“deal[] with instances in which the States concerned
[are] willing to surrender a rigid insistence on their
rights and powers of sovereignty, in order to attain
some mutually desirable end.”82 This second type of
compact creates “[a] specially created body or
department[] and agencies of the member states [to]
administer interstate concordats[.]”83
There are obvious differences between a boundary
compact and a compact creating a commission
specifically empowered to address a regional
problem.84 Boundary compacts aim to resolve claims
to land; for instance, Virginia and Maryland entered
into a compact concerning disputed land around the
Potomac River.85 When states enter into a boundary
compact, each state is left to “regulate the activities of
her own citizens” unless the states agree otherwise in
their compact.86
On the other hand, interstate compacts creating a
bi-state entity “are not extensions of each compacting
state’s authority, but are instead formed through each
state’s surrender of a portion of its sovereignty to the
81

Id. at 70.

82

Id.

83 Joseph F. Zimmerman, Interstate Cooperation: Compacts
and Administrative Agreements 75 (2nd ed. 2002)

Felix Frankfurter & James M. Landis, The Compact
Clause of the Constitution—A Study in Interstate Adjustments,
34 Yale L.J. 685, 696 (1925).
84

85

Id. at 696 n. 43.

86

Virginia v. Maryland, 540 U.S. 56, 67 (2003).

38a
compact entity.”87 “An interstate compact, by its very
nature, shifts a part of a state's authority . . . to the
agency the several states jointly create to run the
compact. Such an agency under the control of special
interests or gubernatorially appointed representatives
is two or more steps removed from popular control, or
even of control by a local government.'”88 “Bi-state
entities occupy a significantly different position in our
federal system than do the States themselves. The
States, as separate sovereigns, are the constituent
elements of the Union. Bi-state entities, in contrast,
typically are creations of three discrete sovereigns:
two States and the Federal Government.”89
Int’l Union of Operating Engineers, Local 542 v. De. River
Joint Toll Bridge Comm’n, 311 F.3d 273, 276 (3d Cir. 2002).
87

88 Hess v. Port Author. Trans-Hudson Corp., 513 U.S. 29, 42
(1994) (quoting Marian E. Ridgeway, Interstate Compacts: A
Question of Federalism 300 (1971)).
89

Id. at 40. As Professor Ridgeway explains:
It is clear that an interstate compact agency
takes orders only from parent states acting in
unison, not from an individual state party to the
compact acting unilaterally. This means that if an
agency such as the Port Authority [of New York and
New Jersey] takes independent legal action in a
matter such as acquisition of land thirty miles
outside its legal geographical boundaries for the
location of an airport, the people of one state may
strenuously object only to find that the people of the
other state or states are delighted or are, more
generally, indifferent to the matter. If such a
situation were an ordinary decision of a county or a
municipality, the people directly concerned would be
able through established political channels to take
action for or against the decision. Likewise, an
objecting state could control its municipal
corporation so acting. In interstate compact
agencies, Congress has provided the public with the

39a
While we are guided by these principles, neither
the parties nor we could find a wealth of cases
explaining to what degree a state surrenders its
sovereign powers by entering an interstate compact
creating a bi-state commission. But the few cases we
found instruct states may surrender significant
aspects of sovereignty by forming a bi-state
commission such as this Delaware River Joint Toll
Bridge Commission. For example, in Operating
Engineers, an engineers’ union sued this same
Commission in federal court for injunctive relief
compelling the Commission to comply with New
Jersey collective bargaining laws.90 The District Court
for the District of New Jersey granted the
Commission summary judgment, holding the states’
legislatures did not express “a clear intent to impose
their labor laws upon the Commission.”91
Our Court of Appeals held it would not impose
state collective bargaining laws on the Commission
absent both states’ “express intent to amend the
Compact or apply their collective bargaining laws to

image of a protector of interstate interests, a
general supervisor, a guarantor that respective
state and local rights and desires will not be
overridden by a powerful agency independent of any
single state’s control. By removing Congress from
this role, or emasculating its and the public’s
conceptions of its role, the courts in effect create a
totally new governmental entity, independent and
unrestrained by any government superior to it.
Marian E. Ridgeway, Interstate Compacts: A Question of
Federalism 39-40 (1971).
90

Operating Engineers, 311 F.3d at 275.

91

Id. at 274.

40a
the Commission’s employees.”92 The Court explained
the Compact did not address Commission employees’
right to collectively bargain. The union argued
because the Commonwealth and New Jersey passed
similar labor laws allowing collective bargaining, the
states intended to amend the Compact applying these
laws.
Our Court of Appeals explained no language in the
Compact permitted the Commonwealth and New
Jersey to amend the Compact by enacting similar
legislation. The Court also found no language in the
Compact allowing Pennsylvania or New Jersey to
modify the Compact through legislation “concurred in”
by the other state.93 The Compact is also “silent” on
this ability. The Court refused to adopt the union’s
argument the states’ similar legislation evinced intent
to amend the Compact without Congress’s approval.
Each state’s legislation could not bind the
Commission if not allowed for in the Compact
approved by Congress or in both of the states’
respective laws.94 Neither the Compact nor
Pennsylvania’s and New Jersey’s labor laws contained
“express legislative intent” to apply the labor laws to
the Commission.95 Silence is not consent in this
regard. Without “express legislative intent” of both
states to impose New Jersey’s labor laws on the
Bridge Commission in the Compact, our Court of
Appeals affirmed the district court’s declaration the

92

Id. at 280.

93

Id.

94

Id.

95

Id. at 281.

41a
states’ collective bargaining laws did not apply to the
Commission.96
In Operating Engineers, our Court of Appeals cited
with approval the New Jersey Supreme Court’s
decision in Eastern Paralyzed Veterans.97 In Eastern
Paralyzed Veterans, the Delaware River Port
Authority, a different bi-state entity created by
compact by Pennsylvania and New Jersey governing
bridge and related transportation operations closer to
Philadelphia and Camden, and the Camden Housing
Authority planned to construct a transit terminal to
operate a regional train service crossing the Delaware
River between the Commonwealth and New Jersey.98
A veterans association sued arguing the Port
Authority must submit to the New Jersey Uniform
Construction Code requiring it install an elevator in
the terminal for handicapped persons.99 The New
Jersey trial court granted summary judgment for the
veterans association holding the Port Authority must
submit to New Jersey’s Construction Code. The New
Jersey appellate division affirmed.
The New Jersey Supreme Court reversed
explaining the Commonwealth and New Jersey
created the Port Authority under a compact as a “bistate entity” meaning neither state “can unilaterally
impose additional duties, powers or responsibilities
upon the Authority.”100 Neither the Commonwealth
96

Id. at 276.

97 Id. at 281 (citing Eastern Paralyzed Veterans Ass’n Inc. v.
City of Camden, 545 A.2d 127, 128 (N.J. 1988)).
98

Eastern Paralyzed Veterans, 545 A.2d at 128.

99

Id. at 130.

Id. (quoting Nardi v. De. River Port Auth., 490 A.2d 949,
950 (Pa. Commw. Ct. 1985)).
100

42a
nor New Jersey could impose regulations on the Port
Authority unless both states expressly agreed.101
While the New Jersey legislature provided its
Construction Code applied to bi-state entities, the
court held it would not impose the Construction Code
without a similar express statement of intent from the
Pennsylvania General Assembly.102
In Eastern Paralyzed Veterans, the New Jersey
Supreme Court found no support for what other
courts referred to as the “internal-external
distinction” theory.103 This theory posits a single state
may not regulate internal operations, but may
regulate the external operations, of a bi-state
entity.104 External operations include laws involving
“health and safety, insofar as its activities may
externally affect the public.”105 In declining to apply
this theory, the New Jersey Supreme Court explained:
“[o]nly when the compact itself recognizes the
101

Id. at 132.

102 Id. at 134. In Eastern Paralyzed Veterans, the New Jersey
Supreme Court also considered whether the Delaware River Port
Authority impliedly consented to New Jersey’s Uniform
Construction Code regulations by participating in a project with
a New Jersey entity subject to New Jersey regulations (the
Camden Housing Authority). Id. The Court remanded the case to
allow fact inquiry into this question. Id. As we are not presented
with the Commission acting in tandem with an entity subject to
Pennsylvania regulations, we do not consider this part of the
Court’s analysis pertinent. The Secretary argues implied consent
but only to show as a form of extrinsic evidence aiding our
interpretation of the Compact. We may not use custom to vary
from terms of the Compact if not ambiguous.

Id. at 132 (citing Agesen v. Catherwood, 260 N.E.2d 525
(N.Y. Sup. Ct. 1970)).
103

104

Id.

105

Id. (quoting Eastern Paralyzed Veterans).

43a
jurisdiction of the compact states may it be subject to
single-state jurisdiction.”106 This view is consistent
with Operating Engineers and principles shared by
the Supreme Court of the United States: “Each State's
sovereign will is circumscribed by that of the other
States in the compact and circumscribed further by
the veto power relinquished to Congress in the
Constitution.”107
Against this backdrop, we review the negotiated
and congressionally approved Compact terms. Unlike
Operating Engineers, we are not addressing an
amendment by state conduct without Congressional
approval. Like Eastern Paralyzed Veterans, we must
examine the negotiated and congressionally approved
Compact’s terms.
2. We define the parties’ rights by interpreting
the Compact terms.
The parties assert various textual and policy
arguments in support of their respective positions. We
attempt to categorize the arguments. Mindful of our
review begins with the Compact terms, the parties’
dispute largely relates to the powers surrendered to
the Commission in the Compact. The Commission
argues the states gave it broad authority to control its
buildings; the Secretary argues the states
unambiguously limited the Commission’s authority to
powers exercised by a “natural person,” while also
limiting the Commission’s powers to only control
bridges within its authority, which did not extend the
106

Id.

Port Auth. Trans-Hudson Corp. v. Feeney, 495 U.S. 299,
312–16 (1990) (Brennan, J., concurring).
107

44a
Commission’s authority to administration buildings.
The Secretary also asserts the Compact has an
ambiguous term requiring us to consider extrinsic
evidence. The second fundamental argument relates
to unilateral state regulation of the Commission. The
Commission argues the Compact unambiguously does
not contemplate state agencies like Pennsylvania’s
Department of Labor & Industry unilaterally
regulating the Commission; the Secretary argues the
Compact’s
unambiguous
silence
about
state
regulation is proof the states did not expressly
surrender their sovereignty.
We must analyze the parties’ arguments by
looking to the text of the Compact. “Interstate
compacts are construed as contracts under the
principles of contract law.”108 “As with any contract,
the analysis begins with ‘the express terms of the
Compact as the best indication of the intent of the
parties.’”109 Only when the text is ambiguous must we
“turn to other interpretative tools to shed light on the
intent of the Compact’s drafters.”110
We
find
the
elected
representatives
of
Pennsylvania and New Jersey delegated broad
authority to the Commission to control and make
improvements to the building, which supersede the
Secretary’s ability to enforce elevator safety and fuelstorage
regulations
to
the
Commission’s
administration building at the Scudder Falls Bridge.
We also find the states did not reserve Pennsylvania’s

108

Tarrant, 569 U.S. at 620.

109 Wayne Land, 894 F.3d at 527 (quoting Tarrant, 569 U.S.
at 628).
110

Id.

45a
ability to regulate construction and improvement of
the Commission’s property.
a. The Compact delegates authority to the
Commission to maintain and improve its
real property.
We first review the powers Pennsylvania and New
Jersey granted to the Commission to determine if the
powers expressly relinquish the states’ sovereign
police powers over building maintenance and
operations. We find they do.
The states granted the Commission the authority
to “acquire, own, use, lease, operate, and dispose of
real property and interest in real property, and to
make improvements thereon.”111 The Compact
defines:
The term “real property,” as used in this compact,
includes lands, structures, franchises, and interests in
land, including lands under water and riparian rights,
and any and all things and rights usually included
within the said term, and includes not only fees
simple and absolute but also any and all lesser
interests, such as easements, rights of way, uses,
leases,
licenses,
and
all
other
incorporeal
hereditaments, and every estate, interest or right,
legal or equitable, including terms of years and liens
thereon by way of judgments, mortgages, or
otherwise, and also claims for damage to real
estate.112
The Supreme Court instructed when interpreting a
contract, language in the contract “presumably takes
111

Sec’y App. 85a (ECF Doc. No. 43-3), Article II(j).

112

Id. at 88a, Article III.

46a
its ordinary meaning[.]”113The Supreme Court
employs the same rules when interpreting statutory
language.114 The term “real property” takes its
ordinary meaning: “Real property can be either
corporeal (soil and buildings) or incorporeal
(easements).”115 The word “structure” also takes its
ordinary meaning: “[a]ny construction, production, or
piece of work artificially built up or composed of parts
purposefully joined together.”116
Applying these bedrock principles, Pennsylvania
and New Jersey granted the Commission with the
authority to acquire and make improvements to its
real
property,
including
the
Commission’s
administration building at Scudder Falls Bridge. The
states also empowered the Commission “[t]o
determine the exact location, system, and character
of, and all other matters in connection with, any and
all improvements or facilities which it may be
authorized to own, construct, establish, effectuate,
maintain, operate or control.”117

113

DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463, 469 (2015).

114 Hardt v. Reliance Standard Life Insurance Co., 560 U.S.
242, 251 (2010) (“[W]e begin by analyzing the statutory
language, ‘assum[ing] that the ordinary meaning of that
language accurately expresses the legislative purpose.’”).

Property, Black's Law Dictionary (11th ed. 2019); see also
34 Pa. Code § 401.1 (defining building as a “structure used or
intended for supporting or sheltering any occupancy.”).
115

116 Structure, Black's Law Dictionary (11th ed. 2019); see also
34 Pa. Code § 401.1 (defining structure as “[a] combination of
materials that are built or constructed with a permanent location
or attached to something that has a permanent location.”).
117

Sec’y App. 86a (ECF Doc. No. 43-3), Article II(n).

47a
The compacting states then agreed to forfeit their
sovereign power in these limited aspects and
authorize the Commission:
To exercise all other powers, not inconsistent
with the Constitutions of the States of
Pennsylvania and New Jersey or of the United
States, which may be reasonably necessary or
incidental to the effectuation of its authorized
purposes or to the exercise of any of the
foregoing powers, except the power to levy taxes
or and affairs and in connection with property
under its control, any and all powers which
might be exercised by a natural person or a
private corporation in connection with similar
property and affairs.118
The Commonwealth and New Jersey grant the
Commission “all other powers, not inconsistent with
the Constitutions of the States of Pennsylvania and
New Jersey or of the United States[.]”119 The states
authorize this extensive grant to the Commission to
carry out “any of the foregoing powers” including the
power to make improvements to its real property. The
ordinary meaning of “all other powers” does not
provide a limitation retaining the Commonwealth’s
police power. We cannot read the Commission’s
authority to make improvements to its real property
as being conditioned on approval from either
compacting state. This interpretation defies the text
agreed by the two states. To read the Compact in the
118

Id., Article II(p).

Id. The parties do not argue any provision of the
Constitution of Pennsylvania or the Constitution of New Jersey
apply to the questions we face today.
119

48a
manner suggested by the Secretary would be, like
expanding amendments in Operating Engineers,
adding language not agreed by Pennsylvania and New
Jersey or approved by Congress.
The Secretary’s arguments are belied by the
Compact language.
To overcome this direct language, the Secretary
raises several arguments. First, he reads the “all
other powers” grant different than the Commission.
The Secretary argues the second clause granting
powers exercised “by a natural person or a private
corporation” limits the first clause. Because he reads
the second clause to limit the first clause, the
Secretary argues the Commission must submit to the
Department’s regulations just like a private
corporation. The Secretary argues the provision is
superfluous unless read as a limitation.
We disagree with the Secretary’s reading. We read
the second clause as an additional grant of authority
to the Commission because the word “and” connects
these clauses in the later grant. This grant is not
superfluous: it enables the Commission to exercise
powers on its property “which might be exercised by a
natural person or a private corporation” even if these
powers are not within express purposes or powers
otherwise granted to the Commission. We consider
this the only natural reading and find its meaning
unambiguous.
We also note the compacting states understood the
plain language of the sweeping grant of authority they
provided to the Commission in this clause. They
specifically carve out the Commission’s power to “levy

49a
taxes.”120 The compacting states unambiguously
granted the Commission the authority to construct
and operate its authorized buildings without
intervention from the compacting states.
Second, the Secretary then argues the Commission
cannot operate buildings without state regulation
because operating buildings is too attenuated from
the core purpose of the Commission to operate and
maintain bridges. We can only assess the purposes
and powers of the Commission as specified by the
compacting states in the Compact. The states
unambiguously state one of the core purposes of the
Commission is to administer bridges. To carry out its
purposes, including the purpose of administering
bridges, the states consented to the Commission’s use
and occupation of any “real property of the said two
states, or of either of them, which may become
necessary or convenient[.]”121 The states then
unambiguously authorized the Commission all powers
to acquire and improve its real property. It did not
limit the Commission’s powers to “bridges,” which the
states separately define as “approach highways and
interests in real property necessary. . . to facilitate the
flow of traffic . . . , or to connect such bridge with”
other roads.122 We find it significant the compacting
states drew clear distinctions between “real property”
and “bridges.”123
See Jefferson Branch Bank v. Skelly, 66 U.S. at 446 (1861)
(“that neither the right of taxation, nor any other power of
sovereignty[.]”).
120

121

Sec’y App. 88a (ECF Doc. No. 43-3), Article III.

122

Id. at 91a, Article X.

123 The parties do not ask us whether the Commission had
the authority under the Compact to own and construct its
administration building. We are only asked if this real property

50a
At oral argument, the Secretary focused on a third
basis to avoid the power surrendered to the
Commission in the Compact: the Commission’s
planned conduct is inconsistent with the United
States Constitution and thus excepted from the broad
grant of authority. We do not see inconsistency. Our
Framers designed the Constitution to reserve certain
powers to the states under the Tenth Amendment.
Our Framers also expressly granted the states the
right—but not the mandate—to be able to bind
together with other states to address regional
problems by creating interstate entities not controlled
by either state. Our Framers left it to the states to
negotiate creations of interstate entities and define
the powers and rights granted to new third interstate
entities which are not citizens or under the control of
either state. The Framers only limited the states’
rights by requiring an interstate compact receive
Congress’s consent to become federal law. When
forming an interstate compact, a state is left to
negotiate its desires to regulate the bi-state entity’s
function within its borders. But once the state agrees
to the terms forming the compact, the state
relinquishes its unilateral control because the third
entity now operates as an instrumentality of multiple
states unless the compact reserves each state’s
authority. If it does not, both compacting states must
consent to unilaterally regulate the interstate entity.
as constructed, owned, and operated by the Commission is
subject to Commonwealth regulatory authority. A challenge to
the authority of an interstate commission is a separate challenge
than the challenge we face today. See Marian E. Ridgeway,
Interstate Compacts: A Question of Federalism 88 (1971) (“In
October 1954 the Madison County (Illinois) state’s attorney filed
a suit challenging Bi-State’s authority to acquire the bridge”).

51a
The Secretary’s argument would nullify the Compact
Clause.
And in this Compact, the states announce the
entity they form. The states create the Commission as
“a body corporate and politic” and “the public
instrumentality” of the two states.124 The states
declare the Commission should develop additional
bridge facilities “without the expenditure of large
sums from the public revenues.”125 The states also
agree it be “highly desirable that there be a single
agency for both states empowered to further the
transportation interests of these States with respect
to that part of the Delaware River north of the stone
arch bridge of the Pennsylvania Railroad from
Morrisville to Trenton[.]”126 The Compact’s express
terms confirm the elected representatives’ agreement
for this bi-state commission to not be subject to one
state’s unilateral regulations as to building operations
and management.
b. The Compact is not silent as to the
Commonwealth’s power to regulate the
Commission’s buildings, and the states did
not reserve sovereign police power as to
powers
expressly
granted
to
the
Commission.
The Secretary argues because the Compact does
not give the Commission this power, this silence must
be read as reserving this sovereign power with
Pennsylvania (at least as to property in
124

Sec’y App. at 83a (ECF Doc. No. 43-3), Article I.

125

Id. at 82a, Preamble.

126

Id. at 82a–83a, Preamble.

52a
Pennsylvania). The Secretary argues the Compact
does
not
immunize
the
Commission
from
Pennsylvania building regulations, regardless of New
Jersey’s view. He believes the Commission must
submit to Department regulations because these
regulations are an exercise of Pennsylvania’s
sovereign police power to regulate the health and
safety of its citizens. Despite the language granting
“any and all powers” to the Commission to carry out
its purposes and powers including maintaining and
operating its buildings, the Secretary argues there is
silence in the Compact on this issue. He then argues
this silence means Pennsylvania retains its regulatory
authority because the states did not “expressly
relinquish[] . . . sovereignty ‘in terms too plain to be
mistaken.’”127
The Secretary argues he retains sovereignty to
regulate building improvements in Pennsylvania
notwithstanding the Compact citing Virginia v.
Maryland and Tarrant Regional Water Dist. v.
Herrmann, “if any inference is to be drawn from such
silence, it would be that each State was left to
regulate the activities of her own citizens[.]”128 We
distinguish these cases. They do not instruct a bistate agency is a “citizen” subject to unilateral
regulation. We see no authority for treating a bi-state
entity as a citizen of a single state, especially when
created as a “body corporate and politic” of both
states. These are boundary cases where states
disputed whether they surrendered certain claims to
land or water by agreeing to a compact.
127 Operating Engineers, 311 F.3d at 280 (quoting Skelly, 66
U.S. at 446).
128

632).

ECF Doc. No. 43-1 at p. 15 (quoting Tarrant, 595 U.S. at

53a
We disagree with the Secretary’s starting point: if
the Compact is silent on this specific power, then the
compacting states can invoke their police power. This
is not how we interpret compacts. We read compacts
as contracts. The plain language grants the
Commission power over its property, including its
building improvements, subject to limiting its
eminent domain power consistent with the law of each
state. We are not faced with a power claimed by one of
the compacting states which is arguably not
addressed in the Compact. We are only faced with
compacting states agreeing to a specific grant of
authority to a bi-state entity accompanied by another
specific grant of “any and all powers” to carry out this
same authority.
Despite the broad grant of authority to the
Commission, the Secretary cannot point to language
in the Compact reserving Pennsylvania’s power to
regulate building improvements in the Commission’s
buildings. The Secretary cites Compact language
outlining how the Commission may exercise its
eminent domain powers as proof the parties did not
intend to grant the Commission sovereign police
powers—otherwise,
the
parties
would
have
specifically described how the Commission may
exercise those powers as it specifically described how
the Commission may exercise eminent domain.129 The
129 The parties offer differing reasons why the states included
this eminent domain provision specifying which law to apply.
The Secretary argues this provision shows the states only
intended to relinquish sovereign rights—such as right of eminent
domain—when the states specifically address how the interstate
agency may use the delegated state sovereign right. The
Commission argues this provision shows the states knew their
laws would not apply to the Commission absent express
reservation.

54a
Secretary’s argument does not specifically address
language relating to the state’s sovereign police
powers of ensuring safety and asks us to assume the
parties’ intent based on an unrelated power delegated
to the Commission.130
The historical context reveals the parties may be overanalyzing the states’ thought processes in their proffered
interpretations. The states originally granted the power of
eminent domain to the Joint Commission in the 1910s to acquire
privately owned bridges for the two states. The states realized
this would not be easy: cars were just starting mass production
and mass consumption by the American public. The states
understood the Joint Commission would need leverage against
private bridge owners, so they both granted the Joint
Commission with its sovereign eminent domain authority. The
states also considered it rather likely the Joint Commission may
ultimately need to use its eminent domain right and detailed
specific procedures. See 1919 Pa. Laws 148, Sec. 1; 1912 N.J.
Laws 1594–97. The Joint Commission was able to acquire
bridges for the states. But this original grant of eminent domain
seemed to be purely pragmatic.
The states, then in possession of the bridges, empowered
today’s Commission with bridge ownership and maintenance
powers in 1934. The states agreed to grant the Commission with
the same eminent domain power held by its predecessor entity.
In the Compact, the states direct the Commission to use eminent
domain as used by the earlier Joint Commission in the 1910s and
1920s. They specifically cite to the laws creating and empowering
the Joint Commission. See Sec’y App. 88a (ECF Doc. No. 43-3),
Article III.
This history drawn from the Compact confirms the states
originally inserted the eminent domain provisions for pragmatic
reasons. We do not think it is plausible the states placed this
provision in the Compact because it knew of potential other
implications of waiving or delegating its sovereign rights. The
states originally drafted this provision to enable the Joint
Commission to carry out its mission and carried this authority
over to the new Commission.
130 We note the Commission does not claim the Compact
delegates it the authority to exercise the states’ sovereign power
of ensuring health and safety as to any building within its

55a
Pennsylvania could have, consistent with the
Compact, reserved its power to regulate building
improvements as it did with the power to levy taxes,
apply its laws of eminent domain, and protect local
police authority. For example, we contrast the
Compact’s silence on the states’ sovereign police
power over building improvements to the Interstate
Oil & Gas Compact Commission, another interstate
compact entered by Pennsylvania. Originally formed
in 1935, Pennsylvania joined the Interstate Oil & Gas
Compact in 1961.131 Congress approved the Compact
in 1969. 132 The compacting states aimed to work
together to efficiently extract natural resources but
specified the listed subjects of the Compact “shall not
limit the scope of the authority of any state.”133
The Compact creating the Commission does not
expressly reserve the compacting states’ scope of
authority as to building improvements. The states
addressed police power relating to the local
municipalities regulating local roads.134 The Secretary
cannot credibly argue the two states knew how to
reserve police power in one section of the Compact but
failed to do so in another section.135
jurisdictional control. The Commission only argues it is free from
Pennsylvania’s unilateral regulation without its consent at the
buildings it owns and operates.
131

S.J. Res. 54, 91st Cong. (1969) (enacted).

132

Id.

133

Id.

134

Sec’y App. at 93a, Article X(d).

135 See In re New Valley Corp., 89 F.3d 143, 149 (3d Cir.
1996) (“A court cannot interpret words in a vacuum, but rather
must carefully consider the parties' context and the other
provisions in the plan.”); see, e.g., Estate of Cowart v. Nicklos
Drilling Co., 505 U.S. 469, 497 (1992) (explaining Congress’s use

56a
Our Court of Appeals cautioned in interpreting the
Compact we “may not read into [the Compact]
language or intent that is simply not there.”136 We see
no language expressing the intent of single state
regulation or expressly reserving the compacting
states’ sovereign police power despite the wide
authority granted to the Commission.
We are also not persuaded by the Secretary’s
argument a sovereign state must expressly relinquish
its authority in a Compact to be effective. First, as we
describe above, the states surrendered the power over
improving and maintaining Commission property to
the Commission. Second, the Secretary’s cited
principle—that a state must relinquish sovereign
rights “in terms too plain to be mistaken”—is taken
from a Civil War-era case involving a state
contracting with a bank under the Contract Clause; it
did not involve the Compact Clause. This Contract
Clause principle announced in Jefferson Branch Bank
v. Skelly would only offer a mode of interpretation
when presented with ambiguous terms.137 The Court
in Skelly was not tasked with reviewing an interstate
compact under the Compact Clause, but rather an
issue presented under the Contract Clause as to
whether Ohio surrendered its sovereignty when
authorizing a private banking company by contract.
Our context is entirely distinct.

in one section of a statute of the term “employee” and the term
“person entitled to compensation” which courts had interpreted
more narrowly shows “Congress intended the two terms to have
different meanings”).
136

Operating Engineers, 311 F.3d at 280.

137

66 U.S. 436 (1861).

57a
In our Compact Clause analysis, this Skelly
principle does not define the sovereign’s ability to
regulate a bi-state commission when the states clearly
define the Commission’s powers and purposes as
including power over operating and maintaining the
Commission’s buildings. We see an example from the
standard of review announced by our Court of Appeals
in Wayne Land: “As with any contract, the analysis
begins with ‘the express terms of the Compact as the
best indication of the intent of the parties[.]’”138
The states agreed to surrender their power to
regulate the Commission’s building improvements to
the Commission. They can negotiate and work to
amend their Compact and obtain Congressional
approval but, as of today, the Compact must be
enforced as written without a judge crafting language
differing from the elected representatives’ negotiated
terms.
3. We do not look at course of performance
because the Secretary fails to show the
Compact contains ambiguous terms.
In addition to arguing the states did not surrender
this authority despite the express Compact language,
the Secretary also argues we should find the Compact
is ambiguous. If the text of the Compact is ambiguous,
we must then ‘turn to other interpretative tools to
shed light on the intent of the Compact’s drafters.’
One of those interpretative tools is the background
notion ‘that states do not easily cede their sovereign
powers[.]’”139 The Secretary argues the custom and
Wayne Land, 894 F.3d at 527 (quoting Tarrant, 569 U.S.
at 620).
138

139

Id. (quoting Tarrant, 569 U.S. at 620).

58a
practices over the last eighty-six years can inform our
review of the asserted ambiguity; in other words, the
Commission never asserted its rights before
consistent with the Secretary’s view of the states’
intend so why can it do so now.
We agree with the Secretary if we found
ambiguity.140 But as we do not see an ambiguity in
the Compact, we do not turn to other these other
interpretative methods when considering whether the
states secretly retained their respective sovereign
police power rights so as to allow the Secretary to
unilaterally regulate the Commission’s building
improvements. We cannot read certain language of
the Compact to mean the compacting states
contemplated single state regulation when the
Compact includes no language to this effect.
The Secretary argues the Commission acquiesced
to his Department’s building safety regulations for
decades, showing a “course of performance” which
would define the terms in the Compact when
interpreted as a contract. We treat compacts “as
contracts under the principles of contract law.”141 We
may look at extrinsic evidence including “the parties’
course of performance under the Compact” if the
terms are ambiguous.142 The Secretary fails to
The Secretary adduces largely undisputed evidence the
Commission sought, and obtained, the Commonwealth’s approval
for a variety of similar issues over the Compact’s history. The
Commission did not timely challenge the accuracy of this
evidence and we today deny its motion for leave to untimely
challenge as untimely and moot. The Commission’s argument is
based on the Law governing the Compact. We agree with the
Commission as to declaratory relief. We cannot read ambiguity
into the Compact and the history is not material.
140

141

Tarrant, 569 U.S. at 628.

142

Id.

59a
identify ambiguous language in the Compact. We
independently find no ambiguous language.
“All other powers” takes its ordinary meaning: all
powers,
including
any
police
power
the
Commonwealth unsuccessfully claims it retained, to
carry out powers granted to the Commission. The
Secretary fails to show it retained police power to
regulate the Bridge Commission’s elevators or fuelpumping stations. We decline to add language not
agreed by the elected officials of the Commonwealth
and New Jersey.
We do not need to review the largely undisputed
course of conduct. The Framers set the standard and
Pennsylvania’s
and
New
Jersey’s
elected
representatives defined the powers surrendered to the
Commission including surrendering certain rights
regarding the Commission’s buildings to the joint
bilateral Commission.
III. Conclusion
Our “‘first and last order of business is
interpreting the compact[;]’ we may not read into it
language or intent that is simply not there.”143
Pennsylvania and New Jersey created the
Commission by Compact in 1934. Congress approved
in 1935. The states agreed to grant the Commission
“all other powers” to carry out its powers and
purposes. The states granted the Commission the
power to operate and maintain its real estate. The
states did not reserve their sovereign powers to
regulate the Commission. Pennsylvania now argues it
retains sovereign rights it surrendered in 1934. They
Operating Engineers, 311 F.3d at 276 (quoting Texas v.
New Mexico, 462 U.S. 554, 567–68 (1983)).
143

60a
could get it back. But the states have not agreed to do
so. As our Court of Appeals instructed in Operating
Engineers, Pennsylvania and New Jersey may amend
the Compact to provide for unilateral state regulation
of Commission buildings. But without an amendment
to the Compact approved by Congress, the Secretary
may not force the Commission to submit to
Pennsylvania’s elevator or fuel-storage regulations
and laws after it unequivocally surrendered it
sovereign authority over maintaining and operating
Commission property in the Compact. We grant
summary judgment to the Commission to declare its
rights under the Compact to be free from the
Secretary’s interference as to elevator operations and
fuel storage at the Scudder Falls administration
building complex through the accompanying Order.144

The Commission withdrew its request for injunctive relief
at oral argument.
144

61a
Because the 1953 proposed amendment was not
approved by Congress, the version of the Compact
codified in the States’ respective statutes does not
reflect the federally-approved Compact. Appx. 23a at
n.35.
The
following
Congressionally-approved
Compact language is from an exhibit utilized by the
District Court, see Appx. 23a-28a, and found in its
docket at number 43-3, pages 82a-96a (Exhibit 5).
AGREEMENT
BETWEEN
THE COMMONWEALTH OF PENNSYLVANIA
AND
THE STATE OF NEW JERSEY
CREATING THE DELAWARE RIVER JOINT
TOLL BRIDGE COMMISSION AS A BODY
CORPORATE AND POLITIC AND DEFINING
ITS POWERS AND DUTIES
Whereas, The Commission, on behalf of the
Commonwealth of Pennsylvania, existing by virtue of
the act, approved the eighth day of May, one thousand
nine hundred and nineteen (Pamphlet Laws, one
hundred forty-eight),1 and its supplements and
amendments, and the commission, on behalf of the
State of New Jersey, existing by virtue of the
provisions of the act, approved the first day of April,
one thousand nine hundred and twelve (Chapter, two
hundred ninety-seven), and its supplements and
amendments, acting as a joint commission, have
acquired various toll bridges over the Delaware River
between the Commonwealth of Pennsylvania and the
State of New Jersey; and
Whereas, Additional bridge facilities between the two
States will be required in the future for the

62a
accommodation of the public and the development of
both States; and
Whereas, Such additional bridge facilities should be
developed without the expenditure of large sums from
the public revenues; and
Whereas, It is highly desirable that there be a single
agency for both States empowered to further the
transportation interests of these States with respect
to that part of the Delaware River north of the stone
arch bridge of the Pennsylvania Railroad from
Morrisville to Trenton; now therefore,
The Commonwealth of Pennsylvania and the State of
New Jersey do hereby solemnly covenant and agree,
each with the other, as follows:
ARTICLE I
There is hereby created a body corporate and politic,
to be known as the Delaware River Joint Toll Bridge
Commission (hereinafter in this agreement called the
“commission”)
which
shall
consist
of
the
commissioners, on behalf of the Commonwealth of
Pennsylvania, provided for by the act, approved the
eighth day of May, one thousand nine hundred and
nineteen (Pamphlet Laws, one hundred forty-eight),
and its supplements and amendments, for the
acquisition of toll bridges over the Delaware River,
and of commissioners, on behalf of the State of New
Jersey, provided for by the act, approved the first day
of April, one thousand nine hundred and twelve
(Chapter two hundred ninety-seven), and its
supplements and amendments, for the acquisition of
toll bridges over the Delaware River, which said

63a
commissions have heretofore been acting as a joint
commission by virtue of reciprocal legislation.
No action of the commission shall be binding unless a
majority of the members of the commission from
Pennsylvania and a majority of the members of the
commission from New Jersey shall vote in favor
thereof.
The commission shall constitute the public corporate
instrumentality
of
the
Commonwealth
of
Pennsylvania and the State of New Jersey for the
following public purposes, and shall be deemed to be
exercising an essential governmental function in
effectuating such purpose, to wit:
(a) The administration, operation, and maintenance of
the joint State-owned bridges across the Delaware
River between the Commonwealth of Pennsylvania
and the State of New Jersey, and located north of the
present stone arch bridge of the Pennsylvania
Railroad across the Delaware River from Morrisville
to Trenton:
(b) The investigation of the necessity for additional
bridge communications over the Delaware River north
of the said railroad bridge, and the making of such
studies, surveys, and estimates as may be necessary
to determine the feasibility and cost of such additional
bridge communications;
(c) The preparation of plans and specifications for, and
location, construction, administration, operation and
maintenance
of,
such
additional
bridge
communications over the Delaware River, north of the
aforesaid railroad bridge, as the commission deems

64a
necessary to advance the interests of the two States
and to facilitate public travel; and the issuance of
bonds and obligations to provide moneys sufficient for
the construction of such bridges; and the collection of
tolls, rentals, and charges for the redemption of such
bonds and obligations, and the payment of interest
thereon;
(d) The procurement from the Government of the
United States of any consents which may be requisite
to enable any project within its powers to be carried
out.
ARTICLE II
For the effectuation of its authorized purposes, the
commission is hereby granted the following powers as
limited and supplemented by the act of July 1, 1996
(P.L. 457, No. 70), entitled “A supplement to the act of
June 25, 1931 (P.L. 1352, No. 332), entitled ‘An act
providing for joint action by the Commonwealth of
Pennsylvania and the State of New Jersey in the
administration, operation, and maintenance of
bridges over the Delaware River, and for the
construction of additional bridge facilities across said
river; authorizing the Governor, for these purposes, to
enter into an agreement with the State of New Jersey;
creating a Delaware River Joint Toll Bridge
Commission and specifying the powers and duties
thereof, including the power to finance the
construction of additional bridges by the issuance of
revenue bonds to be redeemed from revenues derived
from tolls collected at such bridges; transferring to
said commission all powers now exercised by existing
commission created to acquire toll bridges over the
Delaware River; and making an appropriation,’

65a
requiring the commission to adopt competitive
purchasing, equal opportunity employment and
competitive hiring practices”:
(a) To have perpetual succession.
(b) To sue and be sued.
(c) To adopt and use an official seal.
(d) To elect a chairman, vice-chairman, secretary and
treasurer, and appoint an engineer. The secretary,
treasurer, and engineer need not be members of the
commission.
(e) To adopt suitable by-laws for the management of
its affairs.
(f) To appoint such other officers, agents and
employees as it may require for the performance of its
duties.
(g) To determine the qualifications and duties of its
appointees, and to fix their compensation, except that
the commission shall not employ directly or as an
independent contractor a member of the commission
for a period of two years after the expiration of the
term of office of that member.
(h) To enter into contracts.
(i) To acquire, own, hire, use, operate, and dispose of
personal property.

66a
(j) To acquire, own, use, lease, operate, and dispose of
real property and interest in real property, and to
make improvements thereon.
(j.1) At its option, to authorize the Department of
Property and Supplies to prescribe standards and
specifications and make contracts and purchases of
various materials and services for the commission,
pursuant to the provisions of sections 2403,3 2403.14
and 24095 of the act of April 9, 1929 (P.L. 177), known
as “The Administrative Code of 1929.”
(k) To grant the use of, by franchise, lease, and
otherwise, and to make and collect charges for the use
of, any property or facility owned or controlled by it.
(l) To borrow money upon its bonds or other
obligations, either with or without security.
(m) To exercise the power of eminent domain.
(n) To determine the exact location, system, and
character of, and all other matters in connection with,
any and all improvements or facilities which it may be
authorized to own, construct, establish, effectuate,
maintain, operate or control.
(o) In addition to the foregoing powers, to exercise the
powers, duties, authority and jurisdiction heretofore
conferred and imposed upon the aforesaid
commissions, hereby constituted a joint commission
by reciprocal legislation of the Commonwealth of
Pennsylvania and the State of New Jersey, with
respect to the acquisition of toll bridges over the
Delaware River, the management, operation and
maintenance of such bridges, and the location,

67a
construction, operation and maintenance of additional
bridge communications over the Delaware River north
of the aforesaid railroad bridge of the Pennsylvania
Railroad.
(p) To exercise all other powers, not inconsistent with
the Constitutions of the States of Pennsylvania and
New Jersey or of the United States, which may be
reasonably necessary or incidental to the effectuation
of its authorized purposes or to the exercise of any of
the forgoing powers, except the power to levy taxes or
assessments for benefits; and generally to exercise, in
connection with its property and affairs and in
connection with property under its control, any and
all powers which might be exercised by a natural
person or a private corporation in connection with
similar property and affairs.
ARTICLE III
If for any of its authorized purposes (including
temporary purposes), the commission shall find it
necessary or convenient to acquire for public use any
real property in the Commonwealth of Pennsylvania
or the State of New Jersey, whether for immediate or
future use, the commission may, by resolution,
determine to acquire such property by a fee simple
absolute or a lesser interest, and the said
determination shall not be affected by the fact that
such property has theretofore been taken for or is
then devoted to a public use, but the public use in the
hands or under the control of the commission shall be
deemed superior to the public use in the hands or
under the control of any other person, association, or
corporation.

68a
If the commission is unable to agree with the owner or
owners thereof upon terms for the acquisition of any
such real property, in the Commonwealth of
Pennsylvania, for any reason whatsoever, then the
Commission may acquire such real property by the
exercise of the right of eminent domain, in the
manner provided by the act, approved the eighth day
of May, one thousand nine hundred and nineteen
(Pamphlet Laws, one hundred forty-eight), entitled
“An act providing for the joint acquisition and
maintenance by the Commonwealth of Pennsylvania
and the State of New Jersey of certain toll bridges
over the Delaware River,” and the acts amendatory
thereof and supplementary thereto, relating to the
acquisition of inter-State toll bridges over the
Delaware River.
If the commission is unable to agree with the owner or
owners thereof upon terms for the acquisition of any
such real property, in the State of New Jersey, for any
reason whatsoever, then the commission may acquire
such property by the exercise of the right of eminent
domain, in the manner provided by the act of the
State of New Jersey, entitled “An act authorizing the
acquisition and maintaining by the State of New
Jersey, in conjunction with the State of Pennsylvania,
of toll bridges across the Delaware River; and
providing for free travel across the same,” approved
the first day of April, one thousand nine hundred and
twelve (Chapter, two hundred ninety-seven), and the
various acts amendatory thereof and supplementary
thereto, relating to the acquisition of inter-State toll
bridges over the Delaware River.
The power of the commission to acquire real property
by condemnation or the exercise of the power of

69a
eminent domain in the Commonwealth of
Pennsylvania and the State of New Jersey shall be a
continuing power and no exercise thereof shall be
deemed to exhaust it.
The commission and its duly authorized agents and
employe[e]s may enter upon any land, in the
Commonwealth or the State of New Jersey, for the
purpose of making such surveys, maps, or other
examinations thereof, as it may deem necessary or
convenient for its authorized purposes.
However, anything to the contrary contained in this
compact notwithstanding, no property, now or
hereafter vested in or held by any county, city,
borough, village, township or other municipality, shall
be taken by the commission without the consent of
such municipality, unless expressly authorized so to
do by the Commonwealth or State in which such
municipality is located. All counties, cities, boroughs,
villages, townships and other municipalities, and all
public
agencies
and
commissions
of
the
Commonwealth of Pennsylvania and the State of New
Jersey, notwithstanding any contrary provision of
law, are hereby authorized and empowered to grant
and convey to the commission upon its request, but
not otherwise, upon reasonable terms and conditions,
any real property which may be necessary or
convenient to the effectuation of its authorized
purposes, including real property already devoted to
public use.
The Commonwealth of Pennsylvania and the State of
New Jersey hereby consent to the use and occupation
by the commission of any real property of the said two
States, or of either of them, which may be or become

70a
necessary or convenient to the effectuation of the
authorized purposes of the commission, including
lands lying under water and lands already devoted to
public use.
The term “real property,” as used in this compact,
includes lands, structures, franchises, and interests in
land, including lands under water and riparian rights,
and any and all things and rights usually included
within the said term, and includes not only fees
simple and absolute but also any and all lesser
interests, such as easements, rights of way, uses,
leases,
licenses,
and
all
other
incorporeal
hereditaments, and every estate, interest or right,
legal or equitable, including terms of years and liens
thereon by way of judgments, mortgages, or
otherwise, and also claims for damage to real estate.
ARTICLE IV
Notwithstanding any provision of this agreement, the
commission shall have no power to pledge the credit of
the Commonwealth of Pennsylvania, or of the State of
New Jersey, or of any county, city, borough, village,
township
and
other
municipality
of
said
Commonwealth or State, or to create any debt against
said Commonwealth or State or any such
municipality.
ARTICLE V
The commission is hereby authorized to make and
enforce such rules and regulations, and to establish,
levy and collect (or to authorize, by contract,
franchise, liens or otherwise, the establishment,
levying and collection of) such tolls, rates, rents, and

71a
other charges, in connection with any such bridge
across the Delaware River which it may hereafter
construct and operate, as it may deem necessary,
proper, desirable and reasonable, which tolls, rates,
rents, and other charges shall be at least sufficient to
meet interest and sinking fund charges on bonds and
obligations issued by the commission, the
maintenance of such bridge, and the administrative
expenses of the commission properly chargeable to
such bridge. The commission is hereby authorized and
empowered to pledge such tolls, rates, rents, and
other revenues, or any part thereof, as security for the
repayment, with interest, of any moneys borrowed by
it or advanced to it for any of its authorized purposes,
and as security for the satisfaction of any other
obligation assumed by it in connection with such loans
or advances.
ARTICLE VI
The Commonwealth of Pennsylvania and the State of
New Jersey hereby covenant and agree with each
other and with the holders of any bonds or other
obligations of the commission, for which tolls, rents,
rates, or other revenues have been pledged, that, so
long as any of said bonds or obligations remain
outstanding and unpaid (unless adequate provision is
otherwise made by law for the protection of those
advancing moneys upon such bonds or obligations),
the Commonwealth of Pennsylvania and the State of
New Jersey will not diminish or impair the power of
the commission to own, operate and control said
properties and facilities, or to establish, levy and
collect tolls, rents, rates, and other charges in
connection with such properties and facilities.

72a
The Commonwealth of Pennsylvania and the State of
New Jersey hereby covenant and agree with each
other and with the holders of any bonds or obligations
of the commission, for which tolls, rents, rates, or
other revenues shall have been pledged, that the said
Commonwealth and State will not authorize or permit
the construction, operation and maintenance of any
additional bridge or tunnel for the transportation of
passengers by vehicles over the Delaware River by
any other person or body, than the commission,
within a distance of ten miles in either direction from
any such toll bridge, measured along the boundary
line between the said Commonwealth and the said
State.
ARTICLE VII
The bonds or obligations which may be issued by the
commission for any of its authorized purposes, and as
security for which tolls, rents, rates, and other
revenues shall have been pledged, are hereby made
securities in which all State and municipal officers
and bodies of the Commonwealth of Pennsylvania and
the State of New Jersey, and all banks, bankers, trust
companies, savings banks, savings and loan
associations, investment companies, and other
persons carrying on a banking business, or insurance
companies, insurance associations, and other persons
carrying on an insurance business, and all
administrators, executors, guardians, trustees, and
other fiduciaries, and all other persons whatsoever,
who now or may hereafter be authorized to invest in
bonds or other obligations of the Commonwealth of
Pennsylvania or of the State of New Jersey, may
properly and legally invest funds, including capital
belonging to them or within their control; and said

73a
bonds or other obligations are hereby made securities
which may properly and legally be deposited with and
received by any State or municipal officer, or agency
of the Commonwealth of Pennsylvania and the State
of New Jersey, for any purpose for which the deposit
of bonds or other obligations, either of the
Commonwealth or of the State, is now or may
hereafter be authorized.
ARTICLE VIII
The effectuation of its authorized purposes by the
commission is and will be in all respects for the
benefit of the people of the Commonwealth of
Pennsylvania and the State of New Jersey, and for
the increase of their commerce and prosperity, and
since the commission will be performing essential
governmental functions in effectuating said purposes,
the commission shall not be required to pay any taxes
or assessments upon any property acquired or used by
it for purposes authorized by this agreement; and the
bonds or obligations issued by the commission, their
transfer and the income therefrom, including any
profits made on the sale thereof, shall, at all times, be
free from taxation within the Commonwealth of
Pennsylvania and the State of New Jersey.
ARTICLE IX
The commission shall make annual reports to the
Governors and Legislatures of the Commonwealth of
Pennsylvania and the State of New Jersey setting
forth in detail its operations and transactions, and
may make such additional reports from time to time
to the Governors and Legislatures, as it may deem
advisable.

74a
The commission shall submit biennially to a
performance audit jointly conducted by the Auditor
General of Pennsylvania and the State Auditor of
New Jersey, which shall include expenditures and
operations of the commission. These auditors shall
complete the performance audit and prepare a joint
report by December 31 of every odd-numbered year,
with the first audit and report to be completed by
December 31, 1997. A report of those audits shall be
submitted to the Governors and Legislatures of the
Commonwealth of Pennsylvania and the State of New
Jersey and to the Delaware River Joint Toll Bridge
Commission.
An annual financial audit shall be conducted at the
expense of the commission by an independent
accounting firm in accordance with generally accepted
accounting principles. A written report of each audit
shall be submitted to the commission and shall be
retained by the commission for at least five years.
ARTICLE X
Notwithstanding any other provision of this
Agreement, the commission shall have the following
powers:
(a) The commission may acquire, construct,
rehabilitate, improve, maintain, repair and operate
bridges for vehicular or pedestrian traffic across the
Delaware River between the Commonwealth of
Pennsylvania and the State of New Jersey at any
locations north of the boundary line between Bucks
County
and
Philadelphia
County
in
the
Commonwealth of Pennsylvania as extended across
the Delaware River to the New Jersey shore of said

75a
river. The commission may also, subject to the
approval of the State Highway Department of the
State of New Jersey and the Department of Highways
of the Commonwealth of Pennsylvania, lease such
bridges as lessor to, and contract for the operation of
such bridges by, one or more public bodies,
instrumentalities, commissions or public agencies.
Whenever any bridge north of the boundary line
described above in this paragraph (a) proposed to be
acquired by the commission pursuant to the
provisions of this agreement has been constructed
pursuant to consent or authorization granted by
Federal law, the acquisition of such bridge by the
commission shall be by purchase or by condemnation
in accordance with the provisions of such Federal law,
or the acquisition of such bridge by the commission
shall be pursuant to and in accordance with the
provisions of sections 48:5-22 and 48:5-23 of the
Revised Statutes of New Jersey, and for all the
purposes of said provisions and sections, the
commission is hereby appointed as the agency of the
State of New Jersey and the Commonwealth of
Pennsylvania, exercising the rights and powers
granted or reserved by said Federal law or sections to
the State of New Jersey and Commonwealth of
Pennsylvania jointly, or to the State of New Jersey
acting in conjunction with the Commonwealth of
Pennsylvania. The commission shall have authority to
so acquire such bridge whether the same be owned,
held, operated or maintained by any private person,
firm,
partnership,
company,
association
or
corporation, or by any instrumentality, public body,
commission, public agency or political subdivision
(including any county or municipality) of, or created
by or in, the State of New Jersey or the

76a
Commonwealth of Pennsylvania, or by any
instrumentality, public body, commission or public
agency of, or created by or in, a political subdivision
(including any county or municipality) of the State of
New Jersey or the Commonwealth of Pennsylvania.
In addition to other powers conferred upon it, and not
in limitation thereof, the commission may acquire all
right, title and interest in and to the Tacony-Palmyra
Bridge across the Delaware River at Palmyra, New
Jersey, together with any approaches and interests in
real property necessary thereto. The acquisition of
such bridge, approaches and interests by the
commission shall be by purchase or by condemnation
in accordance with the provisions of the Federal law
consenting to or authorizing the construction of such
bridge and approaches, or the acquisition of such
bridge, approaches or interests by the commission
shall be pursuant to and in accordance with the
provisions of sections 48:5-22 and 48:5-23 of the
Revised Statutes of New Jersey, and for all the
purposes of said provisions and sections, the
commission is hereby appointed as the agency of the
State of New Jersey and the Commonwealth of
Pennsylvania, exercising the rights and powers
granted or reserved by said Federal law or sections to
the State of New Jersey and Commonwealth of
Pennsylvania jointly, or to the State of New Jersey
acting in conjunction with the Commonwealth of
Pennsylvania. The commission shall have authority to
so acquire such bridge, approaches and interests,
whether the same be owned, held, operated or
maintained by any private person, firm, partnership,
company, association or corporation, or by any
instrumentality, public body, commission, public
agency or political subdivision (including any county

77a
or municipality) of, or created by or in, the State of
New Jersey or the Commonwealth of Pennsylvania, or
by any instrumentality, public body, commission or
public agency of, or created by or in, a political
subdivision (including any county or municipality) of
the State of New Jersey or the Commonwealth of
Pennsylvania. The power and authority herein
granted to the commission to acquire said TaconyPalmyra Bridge, approaches and interests shall not be
exercised unless and until the Governor of the State of
New Jersey and the Governor of the Commonwealth
of Pennsylvania have filed with the commission their
written consents to such acquisition.
The word “bridge” as used in this agreement shall
include such approach highways and interests in real
property necessary thereto in said Commonwealth or
said State as may be determined by the commission to
be necessary to facilitate the flow of traffic in the
vicinity of any such bridge, or to connect such bridge
with the highway system or other traffic facilities in
said Commonwealth or said State: Provided, however,
That the power and authority herein granted to the
commission in connection with the approach highways
shall not be exercised unless and until the
Department of Highways of the Commonwealth of
Pennsylvania shall have filed with the commission its
written approval as to approach highways to be
located in said Commonwealth and the State Highway
Department of the State of New Jersey shall have
filed with the commission its written approval as to
approach highways to be located in said State.
Notwithstanding any other provision of this
agreement or any provision of law, state or Federal, to
the contrary, the commission may combine, for

78a
financing purposes, any bridge or bridges hereafter
constructed or acquired by it with any or all of the
bridges described or referred to in any trust indenture
securing bridge revenue bonds of the commission at
the time outstanding, subject to any limitations or
restrictions contained in such trust indenture.
Notwithstanding any provision of this agreement,
nothing herein contained shall be construed to limit or
impair any right or power granted or to be granted to
the Pennsylvania Turnpike Commission or the New
Jersey Turnpike Authority, acting alone or in
conjunction with each other, to provide for the
financing, construction, operation and maintenance of
one bridge across the Delaware River south of the
City of Trenton in the State of New Jersey: Provided,
That such bridge shall not be constructed within a
distance of ten miles, measured along the boundary
line between the Commonwealth of Pennsylvania and
the State of New Jersey, from the bridge being
constructed across the Delaware River by the
commission between the borough of Morrisville in said
Commonwealth and the City of Trenton in said State,
so long as there are any outstanding bonds or
obligations of the commission for which the tolls,
rents, rates or other revenues, or any part thereof, of
said bridge now being constructed shall have been
pledged; but such bridge may be constructed at any
other location north of the boundary line described
above in this paragraph (a). Nothing contained in this
agreement shall be construed to authorize the
commission to condemn any such bridge.
(b) The commission may replace any one or more
existing bridges across the Delaware River between
the Commonwealth of Pennsylvania and the State of

79a
New Jersey north of said line with one or more new
bridges at such locations as the commission may
determine to be adequate and convenient for the
traffic to be served thereby.
(c) The commission may acquire by purchase or by the
exercise of the power of eminent domain any existing
ferry or bridge, the acquisition of which, the
commission may determine to be necessary or
advisable in connection with the construction of a new
bridge, the cost of such acquisition to be deemed to be
a part of the cost of such construction.
(d) The commission may enter upon, use, occupy,
enlarge, construct and improve, any street, road or
highway, located within the limits of any
municipality, and deemed by the commission to be
necessary in connection with the acquisition,
construction, improvement, maintenance or operation,
of any bridge, owned or operated by the commission,
or of any bridge approaches, bridge plazas, or
approach highways to any such bridge, subject
however to the consent of the governing body of such
municipality, and to such reasonable police
regulations as may be established by such governing
body.
(e) The commission may demolish and remove any
bridge now operated by it, when such bridge has been
or is being replaced by a new bridge at the same or a
different location, which in the determination of the
commission will serve substantially the same traffic
as that served by such existing bridge, and the
commission may sell or otherwise dispose of any ferry
or other property of the commission deemed by it to be

80a
no longer useful or needed for the purposes of the
commission.
(f) The commission may acquire for the purposes of
this article any real property which it shall find
necessary or convenient to acquire for public use in
the manner provided by Article III of this Agreement,
or in the alternative in the Commonwealth of
Pennsylvania in the same manner and with the same
right of entry as the Highway Department of the
Commonwealth may acquire lands by condemnation
for highway purposes, and in the State of New Jersey
in the same manner and with the same right of entry
as the Highway Department of the State may acquire
lands by condemnation for highway purposes.
(g) The commission may make and enforce such rules
and regulations with respect to the use of any bridge
operated by it as it shall deem proper and reasonable,
including regulations limiting the loads permitted on
any such bridge, and closing to traffic any such bridge
deemed by the commission to be unsafe.
(h) The commission may provide from time to time for
the issuance of its bridge revenue bonds for any one or
more of the following purposes, (1) providing funds for
the acquisition, construction, rehabilitation or
improvement of any one or more bridges, the
acquisition,
construction,
rehabilitation
or
improvement of which is herein authorized, (2)
providing funds for the construction or improvement
of approach facilities deemed by the commission to be
necessary or desirable in connection with the
acquisition, construction, maintenance or operation, of
any bridge owned or operated by the commission,
including but without limitation, bridge approaches,

81a
entrance plazas, overpasses, underpasses and
approach highways, and (3) refunding any bridge
revenue bonds or bridge revenue refunding bonds of
the commission. The bridge or bridges (including any
approach facilities) on account of which a single issue
of bonds shall be issued, as herein authorized, shall
constitute a single project for financing purposes.
(i) The commission may fix, charge and collect tolls,
rates, rents and other charges for the use of any
bridge or bridges constituting a single project, such
tolls to be so fixed and adjusted, subject to any
applicable Federal law, as to provide funds at least
sufficient, (1) to pay the cost of maintaining, repairing
and operating such bridge or bridges, including the
administrative expenses of the commission chargeable
thereto, (2) to pay the bridge revenue bonds or the
bridge revenue refunding bonds issued on account of
such project and the interest on such bonds, and (3) to
provide reserves for such purposes: Provided,
however, That no tolls shall be charged or collected for
the use of any bridge now operated by the commission
as a free bridge, but only for the use of bridges
constructed or acquired by the commission under the
provisions of this compact or agreement. Subject to
any applicable Federal law the commission may
pledge such tolls, rates, rents and other revenues or
any part thereof for such purposes. The commission
may establish separate schedules of tolls, rates and
charges for use of any bridge on which tolls may be
established hereunder by residents of areas adjacent
to or served directly by such bridge under such
conditions and on such terms as it shall determine to
be proper and reasonable including tolls, rates and
charges for unlimited use of any such bridge.

82a
No member of the commission shall be subject to any
personal liability or accountability by reason of any
act or omission of the commission.
1984 Supplemental Agreement
Act 1984, Dec. 18, P.L. 1052, No. 206, §§ 1 to 10,
provided:
“§ 1. Authority to enter into supplemental agreement.
“The Governor is hereby authorized to enter into a
supplemental compact or agreement on behalf of the
Commonwealth of Pennsylvania with the State of
New Jersey, supplementing the compact or agreement
entitled ‘Agreement between the Commonwealth of
Pennsylvania and the State of New Jersey creating
the Delaware River Joint Toll Bridge Commission as a
body corporate and politic and defining its powers and
duties,’ which was executed on behalf of the State of
New Jersey by its Governor on December 18, 1934,
and on behalf of the Commonwealth of Pennsylvania
by its Governor on December 19, 1934, and which
compact or agreement was thereafter amended and
supplemented by compacts or agreements executed by
the respective states in July 1945, July 1951 and July
1953, such supplemental compact or agreement to be
in substantially the following form:
“
‘Supplemental
Agreement
between
the
Commonwealth of Pennsylvania and the State of New
Jersey supplementing the compact or agreement
entitled “Agreement between the Commonwealth of
Pennsylvania and the State of New Jersey creating
the Delaware River Joint Toll Bridge Commission as a
body corporate and politic and defining its powers and

83a
duties,” as heretofore amended and supplemented in
July 1945, July 1951 and July 1953, to establish the
purposes for which the commission may fix, charge
and collect tolls, rates, rents and other charges for the
use of commission facilities and properties.'
“The Commonwealth of Pennsylvania and the State of
New Jersey do hereby solemnly covenant and agree
each with the other as follows:
“(1)(i) Notwithstanding any other provision of the
compact or agreement hereby supplemented, or any
provision of law, State or Federal, to the contrary, as
soon as the existing outstanding bonded indebtedness
of the commission shall be refunded, defeased, retired
or otherwise satisfied and thereafter, the commission
may fix, charge and collect tolls, rates, rents and other
charges for the use of any commission facility or
property and, in addition to any purpose now or
heretofore or hereafter authorized for which the
revenues from such tolls, rates, rents or other charges
may be applied, the commission is hereby authorized
to apply or expend any such revenue for the
management, operation, maintenance, betterment,
reconstruction or replacement (1) of the existing nontoll bridges (formerly toll or otherwise) over the
Delaware River between the State of New Jersey and
the Commonwealth of Pennsylvania heretofore
acquired by the commission pursuant to the
provisions of the act of the State of New Jersey
approved the first day of April, 1912 (Chapter 297),
and all supplements and amendments thereto
[N.J.S.A. § 32:9-1 et seq.], and the act of the
Commonwealth of Pennsylvania approved the eighth
day of May, 1919 (P.L. 148,

84a
No. 102) [§ 3271 et seq. of this title], and all
supplements and amendments thereto and (2) of all
other bridges within the commission's jurisdiction and
control. Betterment shall include, but not be limited,
to parking areas for public transportation services
and all facilities appurtenant to approved projects.
“(ii) The commission may borrow money or
otherwise incur indebtedness and provide, from time
to time, for the issuance of its bonds or other
obligations for one or more of the purposes authorized
in this supplemental agreement. The commission is
hereby authorized and empowered to pledge its tolls,
rates, rents and other revenues, or any part thereof,
as security for the repayment, with interest, of any
moneys borrowed by it or advanced to it for any of its
authorized purposes and as security for the
satisfaction of any other obligation assumed by it in
connection with such loan or advances.
“(iii) The authority of the commission to fix, charge
and collect fees, rentals, tolls or any other charges on
the bridges within its jurisdiction, including the
bridge at the Delaware Water Gap, is hereby
confirmed.
“(iv) The covenants of the State of New Jersey and
the Commonwealth of Pennsylvania as set forth in
Article VI of the compact to which this is a
supplemental agreement shall be fully applicable to
any bonds or other obligations issued or undertaken
by the commission. Notwithstanding Article VI or any
other provision of the compact, the State of New
Jersey and the Commonwealth of Pennsylvania may
construct a bridge across the Delaware River in the
vicinity of Easton, Pennsylvania, and Phillipsburg,

85a
New Jersey, within ten miles of the existing toll
bridge at that location. All the rest and remainder of
the compact, as amended or supplemented, shall be in
full force and effect except to the extent it is
inconsistent with this supplemental agreement.
“(2) The commission is hereby authorized and
empowered to fix, charge or collect fees, rentals, tolls
or any other charges on the proposed bridge to be
constructed in the vicinity of Easton, Pennsylvania,
and Phillipsburg, New Jersey, in the same manner
and to the same extent that it can do so for all other
toll bridges under its jurisdiction and control provided
that the United States Government has approved the
bridge to be a part of the National System of
Interstate and Defense Highways, with 90% of the
cost of construction to be contributed by the United
States Government, and provided further that the
non-Federal share of such bridge project is
contributed by the commission. The commission is
further authorized and empowered in the same
manner and to the same extent that it can do so for all
other toll bridges under its jurisdiction and control to
fix, charge and collect fees, rentals, tolls or any other
charges on any other bridge within its jurisdiction and
control if such bridge has been constructed in part
with Federal funds.
“(3) The consent of Congress to this compact shall
constitute Federal approval of the powers herein
vested in the commission and shall also constitute
authority to the United States Department of
Transportation or any successor agency and the intent
of Congress to grant any Federal approvals required
hereunder to permit the commission to fix, charge and
collect fees, rentals, tolls or any other charges on the

86a
bridges within its jurisdiction to the extent provided
in paragraphs (1), (2) and (3) hereof and the compact.
“(4)
Notwithstanding
above
provisions,
the
commission shall not fix, charge or collect fees,
rentals, tolls or any other charges on any of the
various bridges formerly toll or otherwise over the
Delaware River between the State of New Jersey and
the Commonwealth of Pennsylvania heretofore
acquired by the commission pursuant to the
provisions of the act of the State of New Jersey
approved the first day of April 1912 (Chapter 297),
and all supplements and amendments thereto, and
the act of the Commonwealth of Pennsylvania
approved the eighth day of May 1919 (P.L. 148, No.
102), and all supplements and amendments thereto. •
“(5) At any time that the commission shall be free of
all outstanding indebtedness, the State of New Jersey
and the Commonwealth of Pennsylvania may, by the
enactment of substantially similar acts, require the
elimination of all tolls, rates, rents and other charges
on all bridges within the commission's jurisdiction
and control and, thereafter, all costs and charges in
connection with the construction, management,
operation, maintenance and betterment of bridges
within the jurisdiction and control of the commission
shall be the financial responsibility of the states as
provided by law.
“§ 2. Effect upon signature. • “Upon its signature on
behalf of the State of New Jersey and the
Commonwealth of Pennsylvania, the supplemental
compact or agreement set forth in section 1 of this act
shall become binding and shall have the force and
effect of a statute of the Commonwealth of

87a
Pennsylvania, and the Delaware River Joint Toll
Bridge Commission shall thereupon become vested
with all the powers, rights and privileges, and be
subject to the duties, obligations, conditions and
limitations contained therein, as though the same
were specifically authorized and imposed by statute,
and the Commonwealth of Pennsylvania shall be
bound by all of the obligations assumed by it under
such supplemental compact or agreement, and the
Governor shall transmit an original signed copy
thereof to the Secretary of the Commonwealth for
filing in his office.
“§ 3. Consent and approval of Congress. • “The
Governor is hereby authorized to apply, on behalf of
the Commonwealth of Pennsylvania, to the Congress
of the United States for its consent and approval to
such supplemental compact or agreement.
“§
4.
Authority
to
construct
bridge.
•
“Notwithstanding the authority granted to the
Delaware River Joint Toll Bridge Commission in its
compact to construct bridges across the Delaware
River, the Secretary of Transportation, in cooperation
with the Department of Transportation of the State of
New Jersey and the United States Department of
Transportation, is hereby authorized to construct, as
part of the National System of Interstate and Defense
Highways, a bridge across the Delaware River in the
vicinity of Easton, Pennsylvania, and Phillipsburg,
New Jersey, within ten miles of the existing toll
bridge owned and operated by the commission. • “§ 5.
Authority to enter into agreement for construction,
operation and maintenance.

88a
“The Secretary of Transportation is further
authorized to enter into an agreement with the
Department of Transportation of New Jersey, the
United States Department of Transportation and the
Delaware River Joint Toll Bridge Commission
providing for the operation and maintenance or the
construction, operation and maintenance of the
proposed
Easton-Phillipsburg
bridge
by
the
commission. The provisions of the compact and all
amendments and supplements thereto shall be
applicable to the construction, operation and
maintenance of the bridge facility except as otherwise
provided for by Federal law or in the agreement
between the parties.
“§ 6. Authority to provide funds. • “The
Commonwealth, at its discretion, shall have authority
to provide funds to the Delaware River Joint Toll
Bridge Commission for major capital improvements to
or the replacement of the commission's non-toll
bridges or for such other financial assistance as may
be requested.
“§ 7. Authority of commission to take property.
“For the purposes of the location, construction,
management, operation, maintenance, betterment or
replacement of any bridges now existing or to be
constructed within its jurisdiction and control, the
commission is granted the power and authority to
enter upon, use, overpass, occupy, enlarge, construct,
improve or close any easement, street, road or
highway located within the limits of, or to use, occupy
or take property, now or hereafter vested in or held by
any municipality in accordance with the provisions

89a
and procedures of the laws of the Commonwealth
governing such takings.
“§ 8. Limitation on Governor. • “The Governor of the
Commonwealth of Pennsylvania shall not enter into
the supplemental compact or agreement set forth in
section 1 on behalf of the Commonwealth of
Pennsylvania until passage by the State of New
Jersey of a substantially similar act, including a
substantially similar supplemental compact or
agreement between the two states. [See N.J.S.A. 32:817 to 32:8-22 enacted by L.1985, c. 342, of New Jersey,
on Oct. 21, 1985]
“§ 9. Repeals.
“The following acts and parts of acts are repealed: •
“Section 8 of the act of May 8, 1919 (P.L. 148, No.
102), entitled ‘An act providing for the joint
acquisition and maintenance by the Commonwealth of
Pennsylvania and the State of New Jersey of certain
toll-bridges over the Delaware River.’ [§ 3278 of this
title]
“Act of June 28, 1968 (P.L. 281, No. 136), entitled ‘An
act concerning highways and bridges over the
Delaware River, and responsibilities of the Delaware
River Joint Toll Bridge Commission and the
Department of Highways of the Commonwealth of
Pennsylvania with regard to the construction of
additional crossings.’ [§§ 3418.1 to 3418.5 of this title]
“§ 10. Effective date.
“(a) Except as provided in subsection (b), this act shall
take effect immediately.

90a
“(b) As much of section 9 as relates to the repeal of
section 8 of the act of May 8, 1919 (P.L. 148, No. 102),
entitled ‘An act providing for a joint acquisition and
maintenance by the Commonwealth of Pennsylvania
and the State of New Jersey of certain toll-bridges
over the Delaware River,’ [§ 3278 of this title] shall
take effect July 1, 1986, provided that on or before
such date the Secretary of Transportation publishes
in the Pennsylvania Bulletin a notice indicating
ratification of the compact by the Congress of the
United States.”

